1a
IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
In the Matter of the Personal ) No. 97205-2
Restraint of:
) EN BANC
)
ENDY DOMINGO) Filed
CORNELIO,
) September 17, 2020
Petitioner.
)
MONTOYA-LEWIS, J.—“Children are different.’ ”
State v. Houston-Sconiers, 188 Wn.2d 1, 8, 391 P.3d 409
(2017) (quoting Miller v. Alabama, 567 U.S. 460, 480,
132 S. Ct. 2455, 183 L. Ed. 2d 407 (2012)). The differences between children’s and adults’ culpability matter on a constitutional level in criminal sentencing.
State v. Ramos, 187 Wn.2d 420, 428, 387 P.3d 650
(2017). In Houston-Sconiers, we held that the Eighth
Amendment to the United States Constitution requires
courts to consider the mitigating circumstances of
youth when sentencing juveniles adjudicated as adults
and must have absolute discretion to impose anything
less than the standard adult sentence based on youth.
188 Wn.2d at 19. In this case and its companion case,
In re Personal Restraint of Ali, No. 97205-2, slip op.
(Wash. Sept. 17, 2020), https:/www.courts.wa.gov/opinions/,
we consider whether Houston-Sconiers constitutes a
significant and material change in the law that requires retroactive application on collateral review. As
in Ali, we hold that it does.

2a
I.

FACTS AND PROCEDURAL HISTORY

A. Factual Background
In 2014, Endy Domingo-Cornelio was convicted by
a jury of one count of first degree rape of a child and
three counts of child molestation. The crimes took
place over a two-year span when Domingo-Cornelio
was between 15-17 years old,1 but because of delayed
reporting, he was not investigated or charged until several years later, when he was 20 years old. DomingoCornelio was convicted and sentenced as an adult.
Under the Sentencing Reform Act of 1981 (SRA),
ch. 9.94A RCW, Domingo-Cornelio faced a sentence
between 240 and 318 months. At sentencing, the
State recommended the maximum adult standard
range of 318 months, followed by 36 months of community custody. In its recommendation, the State
acknowledged that Domingo-Cornelio was under 18
at the time of the crimes to explain why an indeterminate sentence would not apply and why it was
seeking 36 months of community custody instead of
lifetime community custody.

1

The Court of Appeals erroneously indicated that DomingoCornelio was between 14-16 years old at the time of the offenses.
In re Pers. Restraint of Domingo-Cornelio, No. 50818-4-II, slip op.
at 2 (Wash. Ct. App. Mar. 8, 2019) (unpublished), https://www.courts.
wa.gov/opinions/pdf/D2%2050818-4-II%20Unpublished%20Opinion.
pdf. The offenses occurred between November 2007 and November 2009, when Domingo-Cornelio was between 15-17 years old.
Clerk’s Papers at 1-2.

3a
Domingo-Cornelio’s defense counsel requested 240
months, the low end of the standard range. Defense
counsel also mentioned that Domingo-Cornelio was
under 18 at the time of the crimes but did not argue
that there were any mitigating factors due to his youth
and did not request an exceptional sentence:
My client has a lot of family support, Your
Honor. He was a juvenile when these incidents took place. I would like the Court to consider the fact that my client did not take the
witness stand at this trial. He sat through the
trial. He heard what was testified to.
The standard range starts out at 20
years, Your Honor, 240 months. Now, I don’t
know what benefit to either my client’s psychological or psychosexual health or to society
or to the victim and their family it would do to
give him more than the low end. 20 years,
Your Honor. He is barely 20 himself. 20 years
is a very long time in prison, and yes, the
standard range goes above that quite a bit,
but I would ask the Court to consider that the
victim seems to be progressing through school
right on time, on course. I believe she has been
able to move on with her life after these acts,
and I am glad that she has, and I hope that
she has a decent – better than decent, a good
life.
I think that society, in general, does not
demand acts that a teenager did, which
weren’t reported for four or five years, should
result in more than 20 years in prison, and I’m
asking that the Court consider all of the facts

4a
here, the lack of information from the family
of the victim in the Presentence Investigation,
and consider that Endy Domingo[-]Cornelio
will be in prison for a minimum for 240
months, and that is long enough, Your Honor.
7 Verbatim Report of Proceedings (Sept. 25, 2014)
(VRP) at 731-32. In addition to the presentence investigation report mentioned in the excerpt above, the
sentencing judge considered several letters written in
support of Domingo-Cornelio.
The court sentenced Domingo-Cornelio to the low
end of 240 months of incarceration and 36 months of
community custody supervision upon release. The sentencing judge said that she had read the letters from
friends and family and imposed this sentence “considering all of the information before the Court,” but she
made no mention of Domingo-Cornelio’s youth in her
ruling. 7 VRP at 733.
B. Procedural History
Domingo-Cornelio appealed unsuccessfully, and
we denied discretionary review on August 31, 2016. We
decided Houston-Sconiers on March 2, 2017, after Domingo-Cornelio’s judgment and sentence became final.
Domingo-Cornelio filed his personal restraint petition
(PRP) in the Court of Appeals on August 30, 2017.
In his PRP, Domingo-Cornelio argued ineffective
assistance of counsel and significant changes in the
law relating to juvenile sentencing. The Court of Appeals retained the PRP for consideration on the merits

5a
but ultimately denied relief. Domingo-Cornelio, No.
50818-4-II, slip op. at 1. Relevant here, the Court of
Appeals held that Houston-Sconiers did not constitute
a significant change in the law because it did not overturn a prior appellate decision that was determinative
of a material issue. Id. at 34. The court did not address
materiality or retroactivity.
We granted review only on the issue of the applicability and effect of Houston-Sconiers. We also set a companion case, Ali, slip op. at 6, for consideration.
II.

ANALYSIS

Domingo-Cornelio filed his PRP within one year
after his judgment and sentence became final, so his
PRP is timely. RCW 10.73.090. The court will grant appropriate relief if his restraint is unlawful for one or
more reasons specified under RAP 16.4(c). RAP 16.4(a).
Under RAP 16.4(c)(4), continued restraint is unlawful
if “[t]here has been a significant change in the law,
whether substantive or procedural, which is material
to the . . . sentence, . . . and sufficient reasons exist to
require retroactive application of the changed legal
standard.”
A. Unlawful Restraint
In Houston-Sconiers, we held that when sentencing juveniles in adult count, “courts must consider mitigating qualities of youth” and “must have discretion to
impose any sentence below the otherwise applicable

6a
SRA range and/or sentence enhancements.”2 188
Wn.2d at 21. Although there are several factual and
procedural differences between Domingo-Cornelio’s
case and the companion case, Ali, we conclude that
Houston-Sconiers constitutes a significant change in
the law material to both cases and that it requires retroactive application.3
1. Significant Change in the Law
Houston-Sconiers represents a significant change
in the law. Ali, slip op. at 11-13. “ ‘One test to determine
whether an [intervening case] represents a significant
change in the law is whether the defendant could have
argued this issue before publication of the decision.’ ”
State v. Miller, 185 Wn.2d 111, 115, 371 P.3d 528 (2016)
(alteration in original) (internal quotation marks
omitted) (quoting In re Pers. Restraint of Lavery, 154

2

We rely on the summary of Houston-Sconiers in the companion case, Ali, slip op. at 710, for the animating principles of
Houston-Sconiers.
3
Because the requirements for a significant, material, and
retroactive change in the law under RCW 10.73.100(6) are echoed
in RAP 16.4(c)(4), we rely on our analysis of those requirements
in Ali, slip op. at 11-23. However, since Domingo-Cornelio’s petition is timely, he does not need to meet the requirements of RCW
10.73.100(6) for us to consider his petition; he needs only to establish that his restraint is unlawful under RAP 16.4(c).

7a
Wn.2d 249, 258-59, 111 P.3d 837 (2005)).4 Here, even
if Domingo-Cornelio’s sentencing court had discretion
to impose a lower sentence prior to Houston-Sconiers,
Domingo-Cornelio could not have argued that it must
consider his youth before imposing a standard range
sentence. Domingo-Cornelio could have, and did, argue
for a low end standard range sentence based, in part,
on his youth. However, he could not have argued that
the sentencing court must consider mitigating factors
relating to his youth in light of its absolute discretion
to impose any lesser sentence. Therefore, HoustonSconiers constitutes a significant change in the law.5
2. Materiality
Houston-Sconiers is material to Domingo-Cornelio’s
case. Domingo-Cornelio was sentenced to a standard
adult range under the SRA for crimes he committed as
a child, one of the types of sentences that required the
4

See also In re Pers. Restraint of Greening, 141 Wn.2d 687,
697 & n.9, 9 P.3d 206 (2000) (“While litigants have a duty to raise
available arguments in a timely fashion and may later be procedurally penalized for failing to do so, . . . they should not be
faulted for having omitted arguments that were essentially unavailable at the time.” “While the State correctly notes that ‘Washington case law is replete with examples of defendants
challenging standing case law and succeeding in reversing that
law,’ we do not believe procedural restrictions should penalize litigants who fail to do so.” (citation omitted)).
5
Unlike in Ali, State v. Brown, 139 Wn.2d 20, 29, 983 P.2d
608 (1999), would not have applied to Domingo-Cornelio because
he was not sentenced to any weapon enhancements. However,
Houston-Sconiers nevertheless meets the test for a significant
change in the law under the above test.

8a
consideration of youth in Houston-Sconiers. 188 Wn.2d
at 21. The sentencing court imposed a low end standard adult sentence—which defense counsel characterized as the “minimum” sentence—for crimes
Domingo-Cornelio committed as a child. 7 VRP at 732.
Under Houston-Sconiers, the sentencing court had discretion to impose an exceptional downward sentence
and it was required to consider mitigating circumstances of youth at sentencing, which it appears it did
not do.
The State argues that Houston-Sconiers is a significant change in the law only because it permits sentencing cowls to depart from mandatory firearm
enhancements that would deny a juvenile offender
meaningful opportunity for release in their lifetime,
and that the significant change is not material to
Domingo-Cornelio because he was not sentenced to
any weapon enhancements and did not receive a de
facto life sentence. As we stated in Ali, slip op. at 13,
this is wrong. We stated explicitly in Houston-Sconiers
that “[t]rial courts must consider the mitigating qualities of youth at sentencing and must have discretion to
impose any sentence below the otherwise applicable
SRA range and/or sentence enhancements.” 188 Wn.2d
at 21 (emphasis added). In that case, the State recommended a sentence below the SRA range—zero months
on the substantive crimes that otherwise would have
carried SRA ranges but the full time for mandatory
weapon enhancements—which it believed to be “just”
but “technically illegal.” Id. We disagreed with the
State’s and sentencing judge’s belief that it was illegal

9a
to impose zero months for the substantive crimes instead of a sentence within the SRA range and held
that sentencing courts must have discretion to impose
any sentence below the otherwise applicable SRA
range in light of the mitigating circumstances of the
defendant’s youth. Id. Thus, the fact that the defendants in Houston-Sconiers were sentenced to time only
for the weapon enhancements does not mean that the
case was limited to such enhancements. We made clear
that our holdings applied equally to any otherwise applicable SRA range or enhancement. Id.6
Domingo-Cornelio received the kind of sentence
that implicates Houston-Sconiers; thus, that case is
material. The change in the law is material to adult
standard range sentences imposed for crimes the defendant committed as a child. Prior to HoustonSconiers, Domingo-Cornelio could not have argued
that the court was required to consider his youth at
sentencing or that it had to consider whether his youth
justified any exceptional sentence downward in light of
its absolute discretion.

6

See also State v. Gilbert, 193 Wn.2d 169, 175-76, 438 P.3d
133 (2019) (“We held [in Houston-Sconiers] that sentencing courts
possess this discretion to consider downward sentences for juvenile offenders regardless of any sentencing provision to the contrary. . . . Our opinion in that case cannot be read as confined to
the firearm enhancement statutes as it went so far as to question
any statute that acts to limit consideration of the mitigating factors of youth during sentencing.”) (first emphasis added).

10a
3. Retroactivity
A new rule applies retroactively on collateral review only if it is a new substantive rule of constitutional law or a watershed rule of criminal procedure.
See Montgomery v. Louisiana, ___ U.S., ___, 136 S. Ct.
718, 728, 193 L. Ed. 2d 599 (2016) (citing Teague v.
Lane, 489 U.S. 288, 109 S. Ct. 1060, 103 L. Ed. 2d 334
(1989)). As we held in Ali, “Houston-Sconiers applies
retroactively because it announced (1) a new rule (2) of
constitutional magnitude (3) that is substantive.” Ali,
slip op. at 15.
First, Houston-Sconiers announced a new rule,
holding that the Eighth Amendment requires sentencing courts to consider mitigating circumstances of
youth and to have absolute discretion to impose any
sentence below the SRA range or enhancements in order to protect juveniles who lack adult culpability from
disproportionate punishment. 188 Wn.2d at 19-21; Ali,
slip op. at 15. The requirement that sentencing courts
must consider youth and must have discretion to impose any exceptional sentence downward based on
youth were not dictated by existing precedent at the
time Domingo-Cornelio’s sentence became final, so
Houston-Sconiers announced a new rule. Ali, slip op. at
15; In re Pers. Restraint of Yung-Cheng Tsai, 183 Wn.2d
91, 104, 351 P.3d 138 (2015).
Second, we decided Houston-Sconiers on constitutional grounds. 188 Wn.2d at 18-19; Ali, slip op. at 16.
Houston-Sconiers followed a line of United States
Supreme Court cases holding “that the Eighth

11a
Amendment to the United States Constitution compels
us to recognize that children are different.” 188 Wn.2d
at 18 (citing Miller, 567 U.S. at 480; Graham v. Florida,
560 U.S. 48, 68-70, 130 S. Ct. 2011, 176 L. Ed. 2d 825
(2010); Roper v. Simmons, 543 U.S. 551, 569-70, 125
S. Ct. 1183, 161 L. Ed. 2d 1 (2005)); see also Ali, slip op.
at 8, 16.
Third, Houston-Sconiers announced a substantive
constitutional rule. Ali, slip op. at 16-23. Substantive
rules include “ ‘rules prohibiting a certain category of
punishment for a class of defendants because of their
status or offense.’ ” Montgomery, 136 S. Ct. at 729
(quoting Penry v. Lynaugh, 492 U.S. 302, 330, 109 S. Ct.
2934, 106 L. Ed. 2d 256 (1989), abrogated on other
grounds by Atkins v. Virginia, 536 U.S. 304, 122 S. Ct.
2242, 153 L. Ed. 2d 335 (2002)). Houston-Sconiers
identified a category of punishments that are beyond
courts’ authority to impose: adult standard SRA
ranges and enhancements for juveniles who possess
such diminished culpability that those sentences
would be disproportionate punishment. Ali, slip op. at
17; Houston-Sconiers, 188 Wn.2d at 19-21. It also established the mechanism necessary to effectuate that
substantive rule. The Eighth Amendment requires
trial courts to exercise discretion to consider the mitigating qualities of youth at sentencing in order to protect the substantive constitutional guaranty of
punishment proportionate to culpability. Ali, slip op. at
17; Houston-Sconiers, 188 Wn.2d at 19-20; see also
Montgomery, 136 S. Ct. at 732-33.

12a
Houston-Sconiers constitutes a significant change
in the law that is material to Domingo-Cornelio’s sentence and requires retroactive application. Ali, slip op.
at 23. Domingo-Cornelio is entitled to resentencing if
he demonstrates actual and substantial prejudice and
there are no other adequate remedies available. RAP
16.4.
B. Prejudice
A petitioner must demonstrate by a preponderance of the evidence that he was actually and substantially prejudiced by the constitutional error in order to
obtain relief on collateral review. In re Pers. Restraint
of Davis, 152 Wn.2d 647, 671-72, 101 P.3d 1 (2004). In
Houston-Sconiers, we explained that Miller requires
discretion to impose any sentence below the SRA range
or enhancements based on youth, and “provides the
guidance on how to use it.” 188 Wn.2d at 23 (listing
mitigating circumstances of youth that courts must
consider). Here, there is no evidence to suggest that the
sentencing court considered any mitigating circumstances relating to Domingo-Cornelio’s youth. Instead,
the only relevant information presented to the sentencing court was Domingo-Cornelio’s age at the time
of the crimes. Moreover, defense counsel erroneously
characterized the low end of the adult standard range
as the “minimum” sentence for Domingo-Cornelio. 7
VRP at 732.

13a
In Ali, we found that the petitioner had established actual and substantial prejudice by a preponderance of the evidence when the sentencing court was
presented with significant evidence of mitigating circumstances of the petitioner’s youth, defense counsel
requested an exceptional sentence based on youth, and
the court imposed the low end of the SRA range, believing it lacked discretion to impose anything less.
Ali, slip op. at 25-26. There, the evidence of prejudice
was overwhelming. However, actual and substantial
prejudice is not limited to circumstances where defense counsel makes an argument that is not legally
available and the sentencing judge explicitly states
that they would deviate from the SRA on that basis if
they could.
We do not expect lawyers to make every conceivable argument on the possibility that it may someday be
recognized as a basis for an exceptional sentence.7 Nor
do we expect sentencing judges to always signal in
their oral rulings that they would exercise more discretion if they felt they had the authority to do so. Instead,
a petitioner establishes actual and substantial prejudice when a sentencing court fails to consider mitigating factors relating to the youthfulness of a juvenile
tried as an adult and/or does not appreciate its discretion to impose any exceptional sentence in light of that
consideration.

7

See Greening, 141 Wn.2d at 697 & n.9 (litigants should not
be penalized for failing to raise unavailable arguments).

14a
Unless the court meaningfully considers youth
and knows it has absolute discretion to impose a lower
sentence, we cannot be certain that an adult standard
range was imposed appropriately on a juvenile under
Houston-Sconiers. Here, there is no evidence that the
sentencing judge considered any mitigating qualities
of Domingo-Cornelio’s youth or that she knew she had
discretion to impose an exceptional sentence based on
youth, just that she was aware of his age at the time of
the crimes. Domingo-Cornelio’s counsel did not argue
any mitigating factors relating to youthfulness or request an exceptional sentence. The sentencing judge
said nothing about whether Domingo-Cornelio’s youth
mitigated his culpability. But silence does not constitute reasoning. See Ramos, 187 Wn.2d at 444 (requiring courts sentencing juveniles to life without parole to
“thoroughly explain [their] reasoning” as to why a juvenile deserves such a sentence, “specifically considering the differences between juveniles and adults” in
the process). That Domingo-Cornelio’s sentencing
judge imposed the lowest standard range sentence
when the State recommended the high end sentence is
evidence that the judge was willing to consider mitigating factors that justify a lower sentence. More likely
than not, Domingo-Cornelio would have received a
lesser sentence had the court complied with the dual
mandates of Houston-Sconiers.
Domingo-Cornelio has met his burden to establish
prejudice. He has established that his sentencing did
not comply with Houston-Sconiers and that more likely
than not, he would have received a lesser sentence if it

15a
had. Domingo-Cornelio is entitled to relief by this PRP
because his restraint is unlawful, he has been actually
and substantially prejudiced, and the State does not
dispute that the other remedies are inadequate under
the circumstances.8
III.

CONCLUSION

Houston-Sconiers announced a significant change
in the law, which is material to Domingo-Cornelio’s
sentence and requires retroactive application. DomingoCornelio was actually and substantially prejudiced by
the sentencing court’s failure to meaningfully consider
youth and to appreciate its absolute discretion to impose a sentence below the adult SRA range for crimes
he committed as a child. Domingo-Cornelio’s PRP is
granted, and we order resentencing consistent with
Houston-Sconiers.
/s/ Montoya-Lewis, J

8

The court “will only grant relief by a [PRP] if other remedies which may be available to the petitioner are inadequate under the circumstances.” RAP 16.4(d). Unlike in Ali, the State does
not contend that the Miller-fix statute, RCW 9. 94A. 730, could
provide adequate relief to Domingo-Cornelio. That statute would
permit Domingo-Cornelio to petition for early release after he
serves 20 years—the full term of the sentence he originally received in violation of Houston-Sconiers—which is no relief at all.

16a
WE CONCUR:
/s/ González, J.
/s/ Gordon McCloud, J.
/s/ Yu, J.
/s/ Owens, J

/s/ Wiggins, JPT

JOHNSON, J. (dissenting)—For the reasons
stated in my dissenting opinion in In re Personal Restraint of Ali, No. 95578-6, I dissent.
/s/ Johnson, J.
/s/ Stephens, C.J.
/s/ Madsen, J.

17a
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
DIVISION II
In the Matter of the Personal
Restraint of:
ENDY DOMINGOCORNELIO,

No. 50818-4-II
UNPUBLISHED
OPINION
(Filed March 8, 2019)

Petitioner.
BJORGEN, J.P.T.*—Endy Domingo-Cornelio petitions for relief from restraint stemming from his convictions for first degree child rape and first degree child
molestation.
Cornelio argues that he received ineffective assistance of counsel because his trial counsel failed to (1)
conduct an adequate pretrial investigation, (2) object
to child hearsay statements and cross-examine witnesses at the child hearsay hearing, and (3) adequately
cross-examine witnesses, object to impermissible opinion testimony, and object to prosecutorial misconduct
at trial. He also argues that a significant change in the
law relating to juvenile offenses requires remand for
resentencing.
We deny his petition.

* Judge Bjorgen is serving as a judge pro tempore for the
Court of Appeals, pursuant to RCW 2.06.150.

18a
FACTS
On October 13, 2012, A.C.1 disclosed to her mother,
T.C.,2 that Cornelio had sexually abused her. At the
time of disclosure, A.C. was 8 years old. The abuse occurred when she was four or five. Cornelio is A.C.’s
cousin and would have been between 14 and 16 years
old at the time of the alleged abuse.
A.C.’s parents, T.C. and Jose Cornelio,3 finalized
their divorce on October 12, 2012, the day before A.C.’s
disclosure. The day of the disclosure, T.C. was on the
phone with her sister asking why she had not testified
on T.C.’s behalf at a child custody hearing. T.C. explained to her sister that she had wanted her to testify
because T.C. believed Jose had had sexual contact with
her sister while her sister was underage and T.C. suspected Jose had done the same or would do the same
to A.C. or other underage family members. It was at
that time that A.C., thinking that T.C. was talking
about her, said that “it wasn’t [Jose], it was [Cornelio].”
Personal Restraint Petition (PRP), Ex. A, at 9. T.C. then
called the police and met with an officer later that
night to report the alleged abuse.
The State charged Cornelio with first degree child
rape and three counts of first degree child molestation.
1

See Gen. Order 2011-1 of Division II, In re the Use of Initials or Pseudonyms for Child Witnesses in Sex Crime Cases,
http://www.courts.wa.gov/appellate_trial_courts.
2
To protect A.C.’s privacy, we refer to her mother by initials.
3
For the sake of clarity, we refer to him as Jose. We intend
no disrespect.

19a
The information alleged that each count occurred between November 2007 and November 2009.
I.

PRE-TRIAL INVESTIGATION

Cornelio’s trial counsel interviewed four witnesses: A.C., T.C., Jose, and Maria Perez (Jose’s girlfriend). In his interview with T.C., counsel learned that
A.C. had been acting out sexually with other children
and adults and that AC had seen a counselor at age 4.
There is no indication that counsel attempted to obtain
records of A.C.’s counseling sessions.
In his interview with Jose, counsel learned that
Cornelio’s brother, Edgar Domingo-Cornelio,4 typically
stayed with Jose whenever Cornelio did. Counsel did
not attempt to interview Edgar.
In his interview with A.C., counsel learned that
A.C. disclosed her alleged abuse to her best friend
three months before disclosing it to her mother. According to A.C., her friend is also a relative of Cornelio’s
and “told [A.C.] that it happened to her too.” PRP, Ex.
E, at 6. Counsel did not interview the friend. Counsel
also learned that A.C. was concerned that T.C. was
going to have Jose sent to jail and that A.C. “always
tell[s] people” that she does not want Jose to go to jail.
PRP, Ex. E, at 20, 22. A.C. also confirmed during this
interview that she disclosed the abuse to her mother
because she “kept asking” whether Jose had done
4

For the sake of clarity, we will refer to him as Edgar. We
intend no disrespect.

20a
something to her and she “got tired of her asking.” PRP,
Ex. E, at 13.
Counsel never interviewed several of Cornelio’s
family members whom Cornelio claims would have testified on his behalf. Among these is his mother, Margarita Cornelio,5 who babysat A.C. for years prior to and
after the alleged abuse. Cornelio asserts that Margarita would have testified that A.C. was never nervous
or upset around him and that A.C. continued to enjoy
coming over to their house even after the allegations
surfaced. Cornelio also claims that other, unnamed
family members would have testified that T.C. accused
Jose of sexually abusing A.C. prior to A.C.’s disclosure
of alleged abuse by Cornelio and that T.C. had a reputation for untruthfulness.
Cornelio also asserts in his petition that Edgar
was at the house with A.C. and him “on almost every
occasion” of the claimed abuse, that Edgar slept on a
couch with Cornelio and A.C., and that Edgar never
saw any interaction between Cornelio and A.C. PRP at
24-25. Cornelio’s petition contains Edgar’s declaration,
which states that he and Cornelio “always spent the
night at Jose’s house together, with the exception of
only a few times when I recall [Cornelio] spending the
night without me.” PRP, Ex. D, at 3. Edgar claims that
every night he and Cornelio were at Jose’s house together they slept on the small couches in the living
room, while A.C. typically would sleep in Jose’s room,
5

For the sake of clarity, we refer to her as Margarita. We
intend no disrespect.

21a
but occasionally would sleep on the large couch in the
living room. Edgar states in his declaration that he
was willing to speak to counsel and testify that he had
never seen Cornelio act inappropriately toward A.C.
and that he is certain that he would have been aware
of any inappropriate activity between them occurring
at Jose’s house.
Cornelio’s investigator, Karen Sanderson, states in
her declaration that police reports show that A.C. was
exposed to drugs, violence, and neglect and left in the
care of drug users while in the custody of her mother.6
Cornelio claims counsel never pursued this line of inquiry. Sanderson’s declaration also states that the documents she obtained from Cornelio’s defense counsel
“did not contain any court records indicating that he
had gathered or reviewed” Jose and T.C.’s publicly
available divorce records.7
II.

CHILD HEARSAY HEARING

The trial court held a hearing the first day of trial
to determine the admissibility of A.C.’s statements to
T.C. and to forensic child interviewer Keri Arnold under RCW 9A.44.120. The State called T.C., Arnold, A.C.,
and Jose to testify. Defense counsel called no witnesses.

6

Cornelio does not include these reports in his petition, but
relies on Sanderson’s references to them in her declaration.
7
Cornelio does not include these records in his petition, but
relies on Sanderson’s references to them in her declaration.

22a
T.C. explained that A.C. had first disclosed to her
that Cornelio had abused her after A.C. overheard T.C.
on the telephone and A.C. thought that her mother was
“saying that her dad had [done] something to her and
she said it wasn’t her dad, it was [Cornelio].” Verbatim
Report of Proceedings (VRP) (Vol. I) at 100. T.C. reported asking A.C. why she had not told her something
earlier because T.C. had questioned A.C. “multiple
times” as a result of T.C. seeing A.C. “trying to do stuff
with dolls and her brother and sister.” VRP (Vol. I) at
99. T.C. denied that A.C. had ever accused anyone else
of sexually abusing her.
T.C. explained that A.C. had been “a little instigator” when she was younger by lying to get her sister
and brother in trouble. VRP (Vol. I) at 94. T.C. stated
that A.C. had been caught lying about stealing candy
from a store or items from her cousin’s house. When
asked whether A.C. understood that stealing was
wrong, T.C. responded that A.C. was “getting there.”
VRP (Vol. I) at 95-96.
Arnold testified that she interviewed A.C. Arnold
explained that she conducted a truth and lie exercise
with A.C., which she said A.C. appeared to understand.
Arnold testified that A.C. was able to promise to tell
Arnold the truth without any difficulty and there was
nothing during the interview that gave her any concern that A.C. had been coached. Arnold reported that
A.C. had disclosed to her that Cornelio abused her.
A.C. testified that her mother had discussed with
her the importance of telling the truth. A.C. affirmed

23a
that she had told the truth about Cornelio touching her
and explained that she had told Arnold everything.
Jose testified that A.C. never complained about
Cornelio. He also testified that he was not aware of A.C.
alleging that anyone else had sexually abused her. Jose
denied ever speaking with A.C. about her allegations
against Cornelio and denied telling A.C. what to say
when she came to court. Jose explained that A.C. had
been caught lying about fighting with her sister, but
also that A.C. would admit that she lied.
The State argued that A.C.’s statements to T.C.
and to Arnold were admissible under RCW 9A.44.120
and under the Ryan8 reliability factors. Defense counsel conceded that the factors had been met and did not
object to the admission of the statements. The trial
court admitted A.C.’s statements to T.C. and Arnold under RCW 9A.44.120 and the Ryan factors.
III.

TRIAL

A.C. testified at trial. She testified that Cornelio
frequently would spend the night at Jose’s house. A.C.
reported that she would sleep on a little couch in the
front room and Cornelio would sleep on a big couch in
the same room. Jose testified that A.C. would sleep in
his room when Cornelio came over. A.C. claimed the
abuse occurred when both she and Cornelio were sleeping on the living room couches.

8

State v. Ryan, 103 Wn.2d 165, 691 P.2d 197 (1984).

24a
A.C. testified that Cornelio would tell her not to
tell her father and then would do things that she did
not like. She testified that Cornelio grabbed her behind, touched the part of A.C. that she used to go to the
bathroom, and made her touch his part that he used to
go to the bathroom. A.C. testified that these things
happened more than one time. She stated that Cornelio put his mouth on her mouth, but denied that Cornelio put his mouth or tongue anywhere else on her
body.
A.C. further testified that she did not tell her
mother about the abuse when it was occurring because
Cornelio told her not to. A.C. further explained that she
did not tell any other adult because she “didn’t want to
tell on him,” and she thought it was “none of their business.” VRP (Vol. VI) at 508.
T.C. testified that A.C. had begun exhibiting sexual behaviors well before the alleged abuse. This made
T.C. concerned that something had happened to A.C.
and prompted T.C. to repeatedly ask A.C. if she had
ever been abused. A.C. had always denied any abuse.
T.C. testified that A.C.’s disclosure occurred when
A.C. overheard her talking on the phone because A.C.
thought T.C. was talking about her. T.C. did not mention that at that moment she was discussing her suspicions that Jose had acted inappropriately with her
sister and that she was concerned he was also acting
inappropriately with A.C.
Arnold testified that delayed disclosure from children is typical, and “more often than not” disclosure

25a
occurs months or even years after the abuse occurred.
VRP (Vol. VI) at 428. She explained that it is common
for children to fear that their disclosure might get a
family member in trouble. She also testified that children often share graphic details of abuse without
“crying or appearing to have a significant emotional
response.” VRP (Vol. VI) at 456. She explained that
“[c]oaching refers to the concern that a child is making
a false allegation because they are being instructed to
do so by another individual.” VRP (Vol. VI) at 450-51.
She then testified that nothing from her interview with
A.C. “caused [her] any concern for suggestibility or
coaching.” VRP (Vol. VI) at 476. Defense counsel did not
object to these statements, but did cross-examine Arnold on the coaching issue and asked her whether a
divorce could factor into a child’s suggestibility.
During closing argument, the prosecutor stated
that A.C.’s testimony was all that was required to find
the abuse beyond a reasonable doubt. She then went
on to say the following:
Can you imagine a system where we did
require something else? You have heard the
testimony. Also, apply your common sense and
experience here. Kids often don’t tell about
abuse that they have suffered until well after
it’s over and done with, or has been happening
for years. It could be a period of months, but
more often than not, it’s years later, if they
ever tell.
. . . . Most of the time, 95 percent of the time,
there is no physical findings. And according to

26a
the law, our law here in Washington State,
that doesn’t matter. You don’t need that additional evidence.
It doesn’t matter that these things don’t
exist in this case. In such a system, most children would have to be told, sorry, we can’t
prosecute your case, we can’t hold your abuser
responsible because there is nothing to corroborate what you are telling us and [no one]
is going to believe a child. We don’t have a system like that. That’s not how our system
works. A child telling you what happened to
them is evidence and it’s enough.
If more was required, we couldn’t hold the
majority of abusers responsible, including this
abuser. We couldn’t hold this defendant responsible for what he did to [A.C.].
VRP (Vol. VII) at 674-75. Defense counsel did not object.
The jury found Cornelio guilty of one count of first
degree child rape and three counts of first degree child
molestation.
IV.

SENTENCING

At sentencing, Cornelio’s offender score was calculated as 9, and his standard sentencing range was 240318 months. Defense counsel argued for the low end of
the range because Cornelio was a juvenile when the
incidents occurred, but did not argue for an exceptional
sentence below that range based on Cornelio’s youth.

27a
The trial court sentenced Cornelio to the minimum 240
months in prison with 36 months of community custody.
V.

APPEAL

Cornelio appealed, and we affirmed his convictions
in an unpublished opinion. State v. Cornelio, No.
46733-0-II, slip op. at 193 Wn. App. 1014 (Wash. Ct.
App. Apr. 5, 2016) (unpublished).9 Among the issues
discussed in the direct appeal were Cornelio’s arguments that he received ineffective assistance of counsel because his trial counsel failed to object to (1) the
admission of child hearsay statements and (2) prosecutorial misconduct during closing argument. We held
against each of those arguments.
On August 31, 2016, Cornelio’s petition for review
to the Supreme Court was denied. State v. Cornelio, No.
93097-0, 186 Wn.2d 1006 (2016). On August 30, 2017,
he filed this PRP.
ANALYSIS
I.

PRP LEGAL PRINCIPLES & STANDARD OF REVIEW

We will grant appropriate relief to a petitioner
who is under unlawful restraint for one or more of the
reasons set out RAP 16.4(c). RAP 16.4(a). To obtain relief through a PRP, a petitioner must generally “establish that a constitutional error has resulted in actual
9

Http://www.courts.wa.gov/opinions/pdf/467330.pdf.

28a
and substantial prejudice, or that a nonconstitutional
error has resulted in a fundamental defect which inherently results in a complete miscarriage of justice.”
In re Pers. Restraint of Isadore, 151 Wn.2d 294, 298, 88
P.3d 390 (2004). Among other reasons, a restraint may
be unlawful when there has been a significant change
in the law which is material to the petitioner’s sentence and sufficient reasons exist to require retroactive
application of the changed legal standard. RAP
16.4(c)(4).
“As a general rule, ‘collateral attack by [PRP] on a
criminal conviction and sentence should not simply be
a reiteration of issues finally resolved at trial and direct review, but rather should raise new points of fact
and law that were not or could not have been raised
in the principal action, to the prejudice of the defendant.’ ” In re Pers. Restraint of Davis, 152 Wn.2d 647,
670-71, 101 P.3d 1 (2004) (footnotes omitted) (quoting
In re Pers. Restraint of Gentry, 137 Wn.2d 378, 388-89,
972 P.2d 1250 (1999)). A “new” issue is not created
merely by supporting a previous ground for relief
with different factual allegations or with different legal arguments. Id. at 671. “The petitioner in a [PRP] is
prohibited from renewing an issue that was raised and
rejected on direct appeal unless the interests of justice
require relitigation of that issue.” Id. (footnotes omitted). The interests of justice may be served by reconsidering a ground for relief if there has been an
intervening material change in the law or some other
justification for having failed to raise a crucial point or
argument on appeal. Gentry, 137 Wn.2d at 388.

29a
The petitioner “must support the petition with
facts or evidence and may not rely solely on conclusory
allegations.” In re Pers. Restraint of Monschke, 160 Wn.
App. 479, 488, 251 P.3d 884 (2010); RAP 16.7(a)(2)(i).
For allegations “ ‘based on matters outside the existing
record, the petitioner must demonstrate that he has
competent, admissible evidence to establish the facts
that entitle him to relief.’ ” Id. (quoting In re Pers. Restraint of Rice, 118 Wn.2d 876, 886, 828 P.2d 1086
(1992)).
If the petitioner’s evidence is based on
knowledge in the possession of others, he may
not simply state what he thinks those others
would say, but must present their affidavits or
other corroborative evidence. The affidavits,
in turn, must contain matters to which the affiants may competently testify.
Rice, 118 Wn.2d at 886. The rules applicable to PRPs
“do not explicitly require that the petitioner submit
evidence, but rather the petition must identify the existence of evidence and where it may be found.” In re
Pers. Restraint of Ruiz-Sanabria, 184 Wn.2d 632, 641,
362 P.3d 758 (2015). That being said, “[h]earsay remains inadmissible under Rice and is not a basis for
granting a reference hearing or other relief.” In re Pers.
Restraint of Moncada, 197 Wn. App. 601, 608, 391 P.3d
493 (2017).10

10

Moncada reasoned that “Ruiz-Sanabria did not overrule
or modify Rice . . . nor did Ruiz-Sanabria involve the question
of admitting hearsay . . . Ruiz-Sanabria did not change the

30a
The petitioner must also show by a preponderance
of the evidence that he was prejudiced by the error.
In re Pers. Restraint of Yates, 177 Wn.2d 1, 17, 296 P.3d
872 (2013). If the petitioner fails to meet his threshold
burden of showing prejudice, the petition must be dismissed. In re Pers. Restraint of Hews, 99 Wn.2d 80, 88,
660 P.2d 263 (1983). If the petitioner makes a prima
facie showing of prejudice, but the merits of the contentions cannot be determined solely on the record, we
will transmit the petition to the trial court for a full
hearing on the merits or a reference hearing pursuant
to RAP 16.11(a) and RAP 16.12. Id. If we are convinced
the petitioner has proven actual prejudicial error, we
will grant the PRP. Id.
II.

INEFFECTIVE ASSISTANCE

OF

COUNSEL

Cornelio argues that he received ineffective assistance of counsel in several respects, thereby denying
him his right to a fair trial.11

evidentiary standards for obtaining a reference hearing.” 197 Wn.
App. at 607.
11
Cornelio contends that the State’s brief concedes two of his
ineffectiveness claims (failing to object to improper vouching and
failing to object to errors of constitutional magnitude in closing
argument) by failing to argue them. We disagree. Although the
State does not present a detailed argument on those specific ineffectiveness issues, it does argue that those claims fail to meet the
evidentiary requirements of PRPs and were previously decided on
the merits in Cornelio’s direct appeal.

31a
A. Legal Principles and Standard of Review
Both the Sixth Amendment to the United States
Constitution and article I, section 22 of the Washington
Constitution guarantee the right of a criminal defendant to effective assistance of counsel. Strickland v.
Washington, 466 U.S. 668, 685-86, 104 S. Ct. 2052, 80
L. Ed. 2d 674 (1984); State v. Thomas, 109 Wn.2d 222,
229, 743 P.2d 816 (1987). Ineffective assistance of counsel is a mixed question of law and fact and is reviewed
de novo. State v. Sutherby, 165 Wn.2d 870, 883, 204
P.3d 916 (2009). Washington follows the Strickland
test: the defendant must show both that (1) counsel’s
performance was deficient and (2) the deficient performance prejudiced the defense. 466 U.S. at 687; State v.
Cienfuegos, 144 Wn.2d 222, 226, 25 P.3d 1011 (2011)
(stating Washington has adopted the Strickland test).
A trial counsel’s performance is deficient if it falls
“below an objective standard of reasonableness.”
Strickland, 466 U.S. at 688. There is a “strong presumption that counsel’s performance was reasonable,”
State v. Kyllo, 166 Wn.2d 856, 862, 215 P.3d 177 (2009),
and a defendant bears the burden of establishing deficient performance. State v. McFarland, 127 Wn.2d 322,
335, 899 P.2d 1251 (1995). A defendant can rebut this
presumption by demonstrating that “there is no conceivable legitimate tactic explaining counsel’s performance.” State v. Reichenbach, 153 Wn.2d 126, 130, 101
P.3d 80 (2004). That said, the “relevant question is not
whether counsel’s choices were strategic, but whether
they were reasonable.” Roe v. Flores-Ortega, 528 U.S.
470, 481, 120 S. Ct. 1029, 145 L. Ed. 2d 985 (2000). In

32a
evaluating ineffectiveness claims, we must be highly
deferential to counsel’s decisions. State v. Michael, 160
Wn. App. 522, 526, 247 P.3d 842 (2011).
In the context of a PRP, a petitioner claiming ineffective assistance of trial counsel necessarily establishes actual and substantial prejudice if he meets the
standard of prejudice applicable on direct appeal. In re
Pers. Restraint of Lui, 188 Wn.2d 525, 538, 397 P.3d 90
(2017). To show prejudice, the defendant must show
that but for counsel’s deficient performance there is a
reasonable probability the outcome of the proceeding
would have been different. State v. Grier, 171 Wn.2d
17, 34, 246 P.3d 1260 (2011). “A reasonable probability
is a probability sufficient to undermine confidence in
the outcome.” Strickland, 466 U.S. at 694; Thomas, 109
Wn.2d at 226.
Even if a petitioner raised a claim of ineffective
assistance of counsel on direct appeal, the petitioner
may assert ineffective assistance on a different basis
on collateral review. In re Pers. Restraint of Khan, 184
Wn.2d 679, 688-89, 363 P.3d 577 (2015).
B. Pretrial Investigation
Cornelio first argues that his trial counsel’s performance was deficient because he failed to obtain records
and interview key witnesses prior to trial. Specifically,
he claims that his trial counsel (1) did not seek A.C.’s
counseling records which allegedly contradict her claims
of abuse, (2) failed to obtain public divorce records that
allegedly showed that A.C. was exposed to many men

33a
during the time of the alleged abuse and that identified
the exact date of the divorce as the day before A.C. accused Cornelio, and (3) failed to interview family
members who had daily interactions with A.C. during
the time of the alleged abuse, including Cornelio’s
brother Edgar, who Cornelio alleges stayed with him
nearly every time he spent the night at Jose’s house.12
Counsel has a duty to make reasonable investigations or to make a reasonable decision that makes
particular investigations unnecessary. Strickland, 466
U.S. at 691. Strickland elaborated:
The reasonableness of counsel’s actions may
be determined or substantially influenced by
the defendant’s own statements or actions.
For example, when the facts that support a
certain potential line of defense are generally
known to counsel because of what the defendant has said, the need for further investigation may be considerably diminished or
eliminated altogether.
Id.
12

Cornelio also claims his counsel failed to interview key
prosecution witnesses, including those who provided the most
damaging child hearsay evidence at trial, but does not provide
any further argument. He does not specify which witnesses he is
referring to, and he does not give evidence that counsel failed to
interview them or explain how he was prejudiced. Furthermore,
as evidenced from Cornelio’s own petition, counsel did interview
T.C., Jose, and A.C. before trial. The trial transcript also reveals
that counsel cross-examined other witnesses for the State, and
there is no indication that having not interviewed them beforehand harmed counsel’s preparation or performance with respect
to those witnesses. We accordingly reject this claim.

34a
Effective assistance of counsel requires that trial
counsel investigate the case, which includes witness
interviews. State v. Jones, 183 Wn.2d 327, 339, 352 P.3d
776 (2015). “Failure to investigate or interview witnesses, or to properly inform the court of the substance
of their testimony, is a recognized basis upon which a
claim of ineffective assistance of counsel may rest.”
State v. Ray, 116 Wn.2d 531, 548, 806 P.2d 1220 (1991).
Courts will not defer to trial counsel’s uninformed or
unreasonable failure to interview a witness. Jones, 183
Wn.2d at 340. However, “there is no absolute requirement that defense counsel interview witnesses before
trial.” In re Pers. Restraint of Pirtle, 136 Wn.2d 467,
488, 965 P.2d 593 (1998).
Whether a failure to interview a particular witness constitutes deficient performance depends on the
reason for the trial lawyer’s failure to interview. Jones,
183 Wn.2d at 340. In addition, a defendant raising a
“failure to investigate” claim must show “a reasonable
likelihood that the investigation would have produced
useful information not already known to defendant’s
trial counsel.” Davis, 152 Wn.2d at 739. Even if a defendant can show such information would have been
uncovered, the potential resulting prejudice “ ‘must be
considered in light of the strength of the government’s
case.’ ” Id. (quoting Rios v. Rocha, 299 F.3d 796, 808-09
(9th Cir. 2002)).

35a
1. Counseling and Divorce Records
Cornelio claims that A.C.’s counseling records
“capture both the lack of allegations of abuse during
the relevant time periods that A.C. now claims she was
abused, but also detail the alleged abuse after she
made her initial allegations.” PRP at 23. He also claims
that Jose’s and T.C.’s divorce records show that A.C.
was exposed to many men and inappropriate situations during the years when the abuse allegedly took
place and confirmed that A.C.’s disclosure occurred the
day after the divorce was finalized. These records also
purportedly show that Jose had concerns that T.C. was
influencing what A.C. was saying during the custody
battle.
Cornelio argues that counsel’s failure to obtain
these records and bring out their content at trial was
deficient performance, particularly because the timing
of the divorce was critical to the defense’s case that
A.C.’s disclosure was related to her parents’ separation
and custody battle.
There is nothing in the record to suggest why defense counsel declined to pursue A.C.’s counseling
records or the divorce records. Cornelio claims that
counsel knew of these records’ existence but clearly
did not know their content. Cornelio does not provide
us with these records. With respect to the counseling
records, Cornelio does not present any direct evidence
of their content, but claims that T.C. took A.C. in for
counseling “to explore her sexual abuse history.” PRP
at 2-3. In support, Cornelio cites Exhibit A of his

36a
petition and VRP (Vol. VII) at 561-564. These sources
do not state that A.C. was in counseling to explore sexual abuse history, but do suggest that A.C. was referred
for therapy at least in part due to inappropriate boyfriend-girlfriend play with other children and straddling the legs of adult male visitors. See PRP, Exhibit
A, at 18-20, 28-30; VRP (Vol. VII) at 564. As for the
divorce records, Cornelio relies on Sanderson’s declaration to show that they contain evidence to support
his claims.13
The State argues that none of the evidence that
Cornelio relies on in his PRP is admissible. Because
Sanderson’s declaration relies on matters outside the
existing record, Cornelio must demonstrate that he
has “competent, admissible evidence to establish the
facts that entitle him to relief.” Monschke, 160 Wn.
App. at 488. Contrary to the State’s claim, Sanderson’s
declaration need not be admissible itself, but must
merely establish that Cornelio possesses competent,
admissible evidence. Id.
Cornelio makes no argument that A.C.’s counseling records would be admissible, and they are likely
protected by privilege. Moreover, even considering the
partial purposes of the counseling described above, he
does not show a reasonable likelihood that investigation of the counseling records would have produced
useful information not already known to counsel.
13

Cornelio also cites Sanderson’s declaration to support his
claim that trial counsel never sought A.C.’s counseling records,
but that declaration does not mention counseling records.

37a
Davis, 152 Wn.2d at 739. In the absence of any argument or authority that the counseling records would be
admissible, we cannot assume that they would be. In
addition, Cornelio has not shown under the standards
above that trial counsel was deficient in not pursuing
the counseling records or that counsel’s failure to pursue them resulted in prejudice to him. We therefore
hold against Cornelio’s claims based on A.C.’s counseling records.
However, it is likely that her parents’ publicly
available divorce records would be admissible. Hence,
with respect to the divorce records, Cornelio has met
his burden to show that he possesses competent, admissible evidence. Id.
To show his counsel was deficient, Cornelio must
demonstrate a reasonable likelihood that investigation
of the divorce records would have produced useful information not already known to counsel. Davis, 152
Wn.2d at 739. There is some support in the record for
Cornelio’s contention that defense counsel did not
know the exact date the divorce was finalized, as he
could not refresh Jose’s memory when Jose struggled
to provide that date on cross-examination. However,
counsel established in his cross-examination of T.C.
that the divorce was finalized on October 12 and that
she contacted the police about A.C.’s disclosure “the
day after.” VRP (Vol. VII) at 565. Furthermore, in his
closing argument counsel argued that the disclosure
occurred “right around that time when Jose got custody of the children after a court battle.” VRP (Vol. VII)
at 696. In addition, counsel highlighted the concerns

38a
regarding A.C.’s suggestibility and coaching that were
echoed in the divorce proceedings.
It does not appear that investigation of the divorce
records would have produced any useful information
not already known to counsel. Davis, 152 Wn.2d at 739.
The record shows that counsel knew, and established
for the jury, that the divorce occurred the day before
A.C.’s disclosure and that there were concerns that she
was being influenced by her mother. Because Cornelio
has not shown that further investigation would have
produced new information, he cannot demonstrate deficient performance on this basis.
2. Potential Witnesses
Cornelio also argues counsel was deficient in failing to interview A.C.’s friend and several of Cornelio’s
family members, including his brother. We examine
each of these potential witnesses in turn.
i.

A.C.’s friend

First, we conclude it was not deficient performance
for counsel not to interview A.C.’s friend, to whom A.C.
disclosed her alleged abuse by Cornelio several months
before her disclosure to T.C. According to A.C., her
friend is also a relative of Cornelio’s and “told [A.C.]
that it happened to her too.” PRP, Ex. E, at 6. In fact,
the friend separately reported to police that her male
cousin exposed his penis to her, but could not remember any more details or identify the man by name. This

39a
suggests that it was a strategic choice not to interview
A.C.’s friend, since counsel would have had reason to
believe that the friend would only corroborate A.C.’s
allegation. Under the circumstances, it was reasonable
for counsel not to pursue this line of inquiry.
ii. Family Members
Sanderson states in her declaration that unnamed
family members reported that T.C. had accused Jose of
abusing her sister and A.C. for years and that T.C. was
not trustworthy. Additionally, according to Sanderson’s
declaration, those family members reported that A.C.
never appeared nervous or uncomfortable around Cornelio and never complained about coming over to Cornelio’s house, where Margarita would babysit her.
Sanderson’s declaration also states that Margarita reported that she had almost daily contact with A.C. during the years the abuse took place, and she continued
to babysit A.C. even after the allegations were made.
Cornelio has not provided us with statements by
these family members, nor has he suggested that they
would have been willing and able to testify at trial. The
State argues that the family members’ statements referenced in the declaration are inadmissible hearsay
and should not be considered.
With respect to the statements of Cornelio’s family
members, Sanderson’s declaration does not meet the
evidentiary standard of Rice. Sanderson cannot competently testify to the hearsay statements contained
within her declaration, and Cornelio has made no

40a
argument that they fall under any hearsay exception.
See Rice, 118 Wn.2d at 886. Instead he argues that
these statements serve as “other corroborative evidence,” and that such evidence can include hearsay.
Reply Br. of Pet’r at 8. However, “[h]earsay remains inadmissible under Rice and is not a basis for granting a
reference hearing or other relief.” Moncada, 197 Wn.
App. at 608.
Because Cornelio has not shown that he has competent, admissible evidence of what his family members would testify to, we reject his claim of ineffective
assistance counsel based on his counsel’s failure to interview them. Monschke, 160 Wn. App. at 488.
iii. Edgar
Finally, Cornelio claims that his brother Edgar
would have testified that he was with Cornelio at
Jose’s house on almost every occasion and never saw
Cornelio act inappropriately with A.C.
Unlike Cornelio’s other family members, Edgar
submitted his own declaration outlining what he
would have testified to. He claims that he and Cornelio
“always spent the night at Jose’s house together, with
the exception of only a few times when [he] recalls
[Cornelio] spending the night without [him].” PRP, Ex.
D, at ¶6. Edgar claims that every night he and Cornelio
were at Jose’s house together they slept on the small
couches in the living room, while A.C. typically would
sleep in Jose’s room but occasionally would sleep on
the large couch in the living room. Edgar would have

41a
testified that he had never seen Cornelio act inappropriately toward A.C. and that he is certain that he
would have been aware of any inappropriate activity
between them occurring at Jose’s house. As Edgar has
firsthand knowledge of the facts he would testify to, his
declaration does “contain matters to which [he] may
competently testify.” Rice, 118 Wn.2d at 886. His declaration therefore satisfies the evidentiary standards of
Rice.
Even if we assume without deciding that Cornelio’s
trial counsel was deficient for failing to interview
Edgar, Cornelio must still demonstrate prejudice. We
hold he was not prejudiced.
Cornelio argues he was prejudiced because Edgar’s
testimony would have directly contradicted much of
what A.C. claimed at trial. Specifically, Cornelio claims
that Edgar’s statement that he always slept on the living room couches with Cornelio, yet never saw Cornelio
act inappropriately with A.C., would have created a
“reasonable chance that some jurors, or even one juror,
would have found [Cornelio] not guilty.” PRP at 25.
Cornelio relies on Jones, which involved a “credibility contest” between the State’s witnesses and the
defendant’s witnesses. 183 Wn.2d at 344. Jones concluded that the defendant was prejudiced because defense counsel did not interview a witness who (1)
would have directly contradicted the alleged victim’s
version of events, (2) would have corroborated similar
testimony of another witness, (3) would have provided
“very defense-favorable testimony” that the defendant

42a
was in fact the victim, and (4) was a neutral observer
with no relationship to either the defendant or the alleged victim. Id. at 341-43.
This case is distinguishable from Jones. First, although Edgar would have contradicted A.C.’s description of the sleeping arrangements, he would not be able
to directly contradict her claims of abuse because he
could not have provided an alibi for the nights when he
did not join Cornelio at Jose’s house. Second, although
Edgar’s testimony that he never saw Cornelio act inappropriately would have supported Jose’s testimony
to that point, he also would have contradicted Jose’s
favorable testimony that A.C. always slept in Jose’s
room when Cornelio was there.
For these reasons, we hold that Cornelio was not
prejudiced because there is not a reasonable probability the outcome of the trial would have been different
had defense counsel interviewed Edgar.
3. Cumulative Effect
To the extent Cornelio argues cumulative error, he
does not demonstrate ineffective assistance of counsel
taking each of these alleged failures to investigate cumulatively. As discussed above, much of the evidence
Cornelio identifies does not meet PRP evidentiary
standards. The remaining evidence either does not provide new information previously unknown to counsel
or lacks the exculpatory strength, even taken together,
to suggest that but for its exclusion there is a reasonable probability that Cornelio would have been

43a
acquitted. We reject Cornelio’s argument of ineffective
assistance counsel for failure to investigate the case.
C. Child Hearsay Hearing
Cornelio’s second ineffective assistance claim is
that his trial counsel failed to cross-examine witnesses
at the child hearsay hearing or object to admission of
child hearsay statements.14 Cornelio presents several
bases for objecting to A.C.’s statements based on the
factors espoused in Ryan: (1) there was evidence that
A.C. had a reputation for untruthfulness, as articulated by her mother at the hearsay hearing, (2) the disclosure was not spontaneous, but was in response to
her mother’s continued assertions that A.C. was being
abused by Jose, and (3) the timing of the disclosure and
facts surrounding the custody battle for A.C. were not
discussed as an apparent motive to lie. He argues that
there was no legitimate strategic or tactical reason for
his trial counsel to concede the admission of A.C.’s
hearsay statements.
We rejected Cornelio’s claim regarding his trial
counsel’s failure to object to the admission of those
statements in his direct appeal. Cornelio, slip op at 193
Wn. App. 1014. Cornelio must therefore demonstrate
14

Although Cornelio claims ineffective assistance based on
his counsel’s failure to cross-examine witnesses in his grounds for
relief, he does not provide any argument in support of this assertion and instead focuses exclusively on his counsel’s failure to
object. Hence, we decline to consider it. RAP 10.3(6); Cowiche
Canyon Conservancy v. Bosley, 118 Wn.2d 801, 809, 828 P.2d 549
(1992).

44a
that the interests of justice require relitigation of that
issue. Davis, 152 Wn.2d at 671. He argues that we
should revisit this issue because he raises new facts
and analysis not raised in his direct appeal and the
alleged error was manifest error affecting a constitutional right. In re Pers. Restraint of Percer, 111 Wn.
App. 843, 847, 47 P.3d 576 (2002) (“In light of the clear
error involving a constitutional right, we reexamine
the issue in the interests of justice.”). Specifically, he
maintains that his direct appeal did not focus on the
lack of meaningful adversarial testing of the prosecution’s case by his trial counsel, nor did it argue that the
issue involved a manifest error affecting a constitutional right. He contends that the interests of justice
will be served because this issue was only “cursorily
discussed” in his direct appeal. Reply Br. of Pet’r at 12.
We hold this is insufficient justification to relitigate this issue. “[S]imply recasting” a previously rejected legal argument “ ‘does not create a new ground
for relief or constitute good cause for reconsidering
the previous rejected claim.’ ” Davis, 152 Wn.2d at 671
(quoting In re Pers. Restraint of Stenson, 142 Wn.2d
710, 720, 16 P.3d 1 (2001)). Moreover, there is no “clear
error” involving Cornelio’s constitutional right to
counsel with respect to the child hearsay hearing.
Percer, 111 Wn. App. at 847. Trial counsel’s decision
about whether to object is a classic example of trial tactics and only in egregious circumstances relating to
evidence central to the State’s case will the failure to
object constitute incompetent representation that justifies reversal. State v. Madison, 53 Wn. App. 754, 763,

45a
770 P.2d 662 (1989). Even assuming Cornelio meets
this standard, he does not show prejudice: that the
trial court would have sustained the objections if made
and the result of the proceeding would likely have been
different. See State v. Saunders, 91 Wn. App. 575, 578,
958 P.2d 364 (1998).
As we noted in Cornelio’s direct appeal, despite
defense counsel’s concession on the Ryan factors, the
trial court nevertheless provided a detailed analysis of
those factors and concluded that A.C.’s hearsay statements were admissible under RCW 9A.44.120. See
Cornelio, slip op at 193 Wn. App. 1014. The trial court
made specific findings that A.C. was truthful, her disclosure was spontaneous, and she had no apparent motive to lie. The fact that the court independently found
the Ryan factors met strongly suggests it would not
have sustained an objection arguing the contrary or
chosen to exclude the statements.
Moreover, even if Cornelio could show that the
court may have decided differently with respect to any
or each of the three Ryan factors he points to in his
petition, he must also show that the trial court would
probably have ruled differently with respect to its consideration of all the Ryan factors taken together. See
Kennealy, 151 Wn. App. at 881 (“No single Ryan factor
is decisive and the reliability assessment is based on
an overall evaluation of the factors.”). He has not done
so. We are satisfied there was no clear error and that
Cornelio has not shown a reasonable probability that
the trial court would have ruled differently had he objected.

46a
Cornelio also argues that his circumstance warrants a presumption of prejudice because by failing to
object to the hearsay statements his counsel “ ‘entirely
fail[ed] to subject the prosecution’s case to meaningful
adversarial testing.’ ” PRP at 33 (quoting Davis, 152
Wn.2d at 673-75). This “ ‘presumptive prejudice rule’ ”
is limited to circumstances comparable to “ ‘the complete denial of counsel’ ” in the context of the entire
representation. Davis, 152 Wn.2d at 674-75 (quoting
Visciotti v. Woodford, 288 F.3d 1097, 1106 (9th Cir.
2002)). That was not the case here. Defense counsel
cross-examined witnesses, raised objections to evidence, presented closing argument to the jury, and advocated for a shorter prison sentence at sentencing. See
id. at 675.
For these reasons, we hold there was no clear error
affecting a constitutional right and the interests of justice do not require us to reconsider our holding on direct appeal that Cornelio was not prejudiced by his
counsel’s performance at the child hearsay hearing.
D. At Trial
Cornelio’s final grounds for arguing ineffective assistance of counsel rest on his counsel’s performance at
trial. Specifically, he argues his counsel failed to (1)
cross-examine witnesses, (2) object to impermissible
opinion testimony, and (3) object to prosecutorial misconduct in closing argument.

47a
1. Cross-Examination
Cornelio argues his counsel was deficient in failing
to meaningfully cross-examine key witnesses who testified against him. Specifically, Cornelio contends his
counsel was deficient because he failed to highlight
T.C.’s suspicions that Jose had been abusing A.C. and
that A.C. had been exhibiting sexually inappropriate
behaviors before the alleged abuse by Cornelio. He also
argues his counsel “seemed confused at best” in failing
to effectively cross-examine Jose and T.C. about the
timing of A.C.’s disclosure to highlight that it occurred
the day after their divorce. PRP at 35.
The extent of cross-examination is a matter of
judgment and strategy. Davis, 152 Wn.2d at 720. We
will not find ineffective assistance of counsel based on
trial counsel’s decisions during cross-examination if
counsel’s performance fell within the range of reasonable representation. Id.
Although counsel may not have emphasized this
information as much as Cornelio would have liked, the
fact remains that most of this information was established on the record for the jury to consider. Counsel
did not explicitly draw out the fact that A.C. was exhibiting sexualized behaviors before the alleged abuse,
but he did establish that A.C. claimed she learned
those behaviors from movies and that starting when
A.C. was three years old T.C. had harbored suspicions
that Jose had abused A.C. Counsel’s choice to highlight
where A.C. learned those behaviors, rather than when

48a
she exhibited them, fell within the range of reasonable
representation.
As for the timing of the disclosure, although counsel did not clarify the timing during Jose’s testimony,
he did establish on cross-examination of T.C. that A.C.’s
disclosure occurred the day after the divorce was finalized. Counsel’s performance in drawing out this fact for
the jury to consider likewise fell within the range of
reasonable representation.
Cornelio’s argument essentially “amounts to an
assertion that trial counsel could have done a better
job at cross-examination. This is not enough to demonstrate deficient performance.” State v. Johnston, 143
Wn. App. 1, 20, 177 P.3d 1127 (2007). We hold counsel
was not deficient.
2. Improper Opinion Testimony15
Cornelio next claims that his trial counsel failed to
object when the State’s witness improperly commented
on A.C.’s credibility.16 Specifically, Cornelio claims that
15

In his grounds for relief, Cornelio characterizes this argument as part of his claim of ineffective assistance of counsel. However, in arguing this issue he instead presents the standard for
manifest error of constitutional magnitude, which is an exception
to the rule that an appellate court may refuse to review an unpreserved error on direct appeal. RAP 2.5(a). As that is the standard
on direct appeal, rather than in a PRP, we instead analyze this
claim under the ordinary framework for ineffective assistance of
counsel for failure to object.
16
Cornelio initially characterizes this claim as improper
vouching, which occurs when a prosecutor expresses a personal

49a
Arnold improperly stated that she had “no concern”
that A.C. was coached or that suggestibility affected
her disclosure, improperly discussed that delayed disclosure was “typical,” and improperly suggested that it
was common for children not to show a significant emotional response when talking about their abuse. PRP
at 36; VRP (Vol. VI) at 428-29, 455-56, 476.
No witness may state an opinion about a victim’s
credibility because such testimony “invades the jury’s
exclusive function to weigh the evidence and determine credibility.” State v. Alexander, 64 Wn. App. 147,
154, 822 P.2d 1250 (1992). Impermissible opinion testimony regarding the defendant’s guilt may be reversible error because it violates the defendant’s
constitutional right to a jury trial, which includes the
independent determination of the facts by the jury.
State v. Kirkman, 159 Wn.2d 918, 927, 155 P.3d 125
(2007).
Testimony on general child victim interview protocol does not improperly comment on the truthfulness
of the victim. Kirkman, 159 Wn.2d at 934. Furthermore,
it has long been recognized that a qualified expert is competent to express an opinion on a
proper subject even though he thereby expresses an opinion on the ultimate fact to be
belief in a witness’s credibility. See State v. Thorgerson, 172
Wn.2d 438, 443, 258 P.3d 43 (2011). However, his argument in
fact is not that the State prosecutor vouched for A.C.’s credibility,
but that the State’s witness provided impermissible opinion testimony on A.C.’s credibility.

50a
found by the trier of fact. The mere fact that
the opinion of an expert covers an issue which
the jury has to pass upon, does not call for automatic exclusion.
Id. at 929 (internal citations omitted).
Cornelio argues that Arnold’s explanations of delayed disclosure and children’s lack of emotional response to recounting their abuse improperly went
beyond general testimony about child victim interview
protocol. We disagree.
Arnold at no time linked her discussions of delayed disclosure or the common lack of emotional response from child victims to A.C. specifically; she
merely described some of the psychological factors that
generally bear on how children might act and present
themselves after they are abused or in recounting their
abuse. The jury was then left to weigh this general information in its consideration of A.C.’s credibility.
Cornelio also argues that Arnold’s statement that
she had no concern that A.C. had been coached
amounted to an “explicit statement regarding the accuracy and truthfulness of A.C.’s accusations” and that,
therefore, trial counsel’s failure to object to it was a
manifest constitutional error. PRP at 38. Again, we disagree.
Arnold did not say that A.C. was telling the truth
or that she believed her, but rather made an inference
based on her interactions with A.C. that A.C. was
not exhibiting certain behaviors of coaching or

51a
suggestibility. Arnold testified that in her professional
experience, these can be an issue when interviewing
and counseling child victims.
We hold Arnold’s statements were not improper,
and defense counsel was not deficient for failing to object to them.
3. Prosecutorial Misconduct17
Finally, Cornelio argues his trial counsel failed to
object to alleged prosecutorial misconduct during closing argument.18
Although prosecutors enjoy “wide latitude to argue reasonable inferences from the evidence,” they
“must ‘seek convictions based only on probative evidence and sound reason.’ ” In re Pers. Restraint of
Glassman, 175 Wn.2d 696, 704, 286 P.3d 673 (2012)
(quoting State v. Casteneda-Perez, 61 Wn. App. 354,
363, 810 P.2d 74 (1991)). To prevail on a prosecutorial
17

Cornelio classifies this argument as an ineffective assistance of counsel claim, but instead argues under the framework
for analyzing prosecutorial misconduct on direct appeal. We accordingly address this argument as an ordinary claim of prosecutorial misconduct in the context of PRP requirements that
Cornelio show actual and substantial prejudice.
18
Although Cornelio made several claims of prosecutorial
misconduct in his direct appeal, none of them overlap with the
statements he challenges in his PRP. Hence, this argument raises
new points of fact and law that were not raised in the principal
action. See Davis, 152 Wn.2d at 670-71. If there is doubt about
whether two grounds are distinct, we resolve the doubt in the
petitioner’s favor. In re Pers. Restraint of Taylor, 105 Wn.2d 683,
688, 717 P.2d 755 (1986).

52a
misconduct claim, a defendant must show that the conduct was both improper and prejudicial “in the context
of the record and all of the circumstances of the trial.”
Id.
In establishing prejudice where the defendant did
not object at trial, the defendant is deemed to have
waived the error unless the misconduct was so flagrant
and ill-intentioned that an instruction could not have
cured the resulting prejudice. State v. Emery, 174
Wn.2d 741, 760-61, 278 P.3d 653 (2012). In that case
“the defendant must show that (1) ‘no curative instruction would have obviated any prejudicial effect on the
jury’ and (2) the misconduct resulted in prejudice that
‘had a substantial likelihood of affecting the jury verdict.’ ” Id. at 761 (quoting State v. Thorgerson, 172
Wn.2d 438, 455, 258 P.3d 43 (2011)).
Cornelio challenges the following segment of the
State’s closing argument, which followed its statement
that A.C.’s testimony was all that was required to find
the abuse beyond a reasonable doubt:
Can you imagine a system where we did
require something else? You have heard the
testimony. Also, apply your common sense and
experience here. Kids often don’t tell about
abuse that they have suffered until well after
it’s over and done with, or has been happening
for years. It could be a period of months, but
more often than not, it’s years later, if they
ever tell.
. . . . Most of the time, 95 percent of the time,
there is no physical findings. And according to

53a
the law, our law here in Washington State,
that doesn’t matter. You don’t need that additional evidence.
It doesn’t matter that these things don’t
exist in this case. In such a system, most children would have to be told, sorry, we can’t
prosecute your case, we can’t hold your abuser
responsible because there is nothing to corroborate what you are telling us and [no one] is
going to believe a child. We don’t have a system like that. That’s not how our system
works. A child telling you what happened to
them is evidence and it’s enough.
If more was required, we couldn’t hold the
majority of abusers responsible, including this
abuser. We couldn’t hold this defendant responsible for what he did to [A.C.].
VRP (Vol. VII) at 675 (emphasis added). Defense counsel did not object.
Cornelio compares these remarks to those in State
v. Thierry, which we held constituted prosecutorial
misconduct. In her opening argument, the prosecutor
in Thierry stated:
If the law required more, if the law required
anything, something, anything beyond the
testimony of a child, the child’s words, [J.T.’s]
words, those instructions would tell you that,
and there is no instruction that says you need
something else. And, again, if that was required, the State could rarely, if ever, prosecute
these types of crimes because people don’t rape

54a
children in front of other people and often because children wait to tell.
190 Wn. App. 680, 685, 360 P.3d 940 (2015), review denied, 185 Wn.2d 1015 (2016). After defense counsel’s
closing argument, in which counsel tried to rehabilitate Thierry’s credibility and highlight inconsistencies
in the child victim’s statements and the victim’s potential motive to lie, the prosecutor returned to her theme
in rebuttal:
[Defense counsel] says, “It’s a good thing to
tell kids, ‘Tell someone if you’ve been abused.
You’re not going to get in trouble.’ ” She said,
“It’s a good thing to make sure that they know
that they can tell when this has happened to
them.” That statement contradicts everything
that she just stood up here and argued to you
about. How is it a good thing when basically
the crux of her argument is: “They aren’t going to be believed. Children can’t be believed.
There’s never any other physical evidence. We
can’t believe what they say because they
make up stories,” so how is it a good thing to
tell them that they should tell somebody because we’re going to bring them in here to court
to have a Defense attorney say, You can’t believe them.”
....
[Defense counsel] wants you to basically disregard everything that [J.T.] has said between
what he told [his mother], between what he
told Ms. Arnold-Harms, between when he told
his primary care provider Ms. Lin and what

55a
he told Amber Bradford. “Just disregard all of
that because he’s a child, because he was 8
when he said these things and because he was
9 when he was on the stand. Nothing he said
is credible so just disregard it all.” If that argument has any merit, then the State may as
well just give up prosecuting these cases, and
the law might as well say that “the word of a
child is not enough.”
Id. at 687-88.
“It is improper for prosecutors to ‘use arguments
calculated to inflame the passions or prejudices of the
jury.’ ” Id. at 690 (quoting Glassman, 175 Wn.2d at
704). Thierry reasoned that an argument that “ ‘exhorts the jury to send a message to society about the
general problem of child sexual abuse’ qualifies as such
an improper emotional appeal.” Id. (quoting State v.
Bautista-Caldera, 56 Wn. App. 186, 195, 783 P.2d 116
(1989)). The court accordingly held that the comment
was improper because it essentially told the jury that
it needed to convict the defendant in order to allow reliance on the testimony of victims of child sex abuse
and protect future victims. Id. at 691.
The prosecutor’s comments in this appeal do not
share the flaws present in Thierry. As noted, the prosecutor’s message in Thierry was essentially that the
jury needed to convict the defendant in order to allow
reliance on the testimony of child victims in future
cases and to protect future victims of such abuse. Here,
the prosecutor instead highlighted the standard of
evidence to make sure the jury understood that A.C.’s

56a
testimony alone may be sufficient to meet the State’s
burden of proof, should the jury find A.C. credible. The
prosecutor’s statement in this case merely reflected the
law and did not have the inflammatory effect of the
statement in Thierry. Because the statement was not
improper, we need not consider whether Cornelio was
prejudiced.19
III.

SIGNIFICANT CHANGE

IN

LAW

Cornelio argues that a significant change in law
applies retroactively to his case and requires remand
for a new sentencing hearing. Specifically, he argues
that State v. O’Dell, a recent Washington Supreme
Court decision issued after the imposition of his sentence, holds that trial courts should consider youth as
a mitigating factor and gives courts the discretion to
impose an exceptional sentence below the standard
range applicable to adults. 183 Wn.2d 680, 358 P.3d
359 (2015), review denied, 189 Wn.2d 1007 (2017). He
argues similarly that State v. Houston-Sconiers, 188
Wn.2d 1, 391 P.3d 409 (2017), constituted a significant
change in the law through its requirement that trial
courts consider the characteristics of youth in sentencing for offenses committed while a juvenile.

19

For the same reason, we likewise need not address Cornelio’s
conclusory argument that defense counsel was ineffective for failing to object.

57a
A. Legal Principles and Standard of Review
A restraint may be unlawful when there has been
a significant change in the law which is material to the
petitioner’s sentence and sufficient reasons exist to
require retroactive application of the changed legal
standard. RAP 16.4(c)(4). A significant change in the
law occurs “when an intervening appellate decision
overturns a prior appellate decision that was determinative of a material issue.” State v. Miller, 185 Wn.2d
111, 114, 371 P.3d 528 (2016). An intervening decision
that “ ‘settles a point of law without overturning prior
precedent’ ” does not constitute a significant change in
the law. Id. at 114-15 (quoting In re Pers. Restraint of
Turay, 150 Wn.2d 71, 83, 74 P.3d 1194 (2003)). One test
to determine whether a decision represents a significant change in the law is whether the defendant could
have argued the issue in question before publication of
the intervening decision. Id. at 115.
B. Significant Change in the Law
RCW 9.94A.535(1)(e) provides that a trial court
may impose an exceptional sentence below the standard range if it finds mitigating circumstances, including impairment of the defendant’s capacity to
appreciate the wrongfulness of his conduct. O’Dell held
that “a defendant’s youthfulness can support an exceptional sentence below the standard range applicable to
an adult felony defendant, and that the sentencing
court must exercise its discretion to decide when that
is.” 183 Wn.2d at 698-99. The court explained,

58a
Until full neurological maturity, young people
in general have less ability to control their
emotions, clearly identify consequences, and
make reasoned decisions than they will when
they enter their late twenties and beyond.
Id. at 692. In drawing these conclusions, O’Dell relied
on the reasoning and scientific information underlying
the United States Supreme Court’s decisions in
Roper v. Simmons, 543 U.S. 551, 125 S. Ct. 1183, 161
L. Ed. 2d 1 (2005), Graham v. Florida, 560 U.S. 48, 130
S. Ct. 2011, 176 L. Ed. 2d 825 (2010), and Miller v. Alabama, 567 U.S. 460, 132 S. Ct. 2455, 183 L. Ed. 2d 407
(2012).
In rejecting O’Dell’s argument that it should consider his age as a mitigating circumstance at sentencing, the trial court in O’Dell relied on State v. Ha’mim,
which held that a defendant’s age, alone, does not automatically support an exceptional sentence below the
standard range applicable to an adult felony offender.
O’Dell, 183 Wn.2d at 689; State v. Ha’mim, 132 Wn.2d
834, 847, 940 P.2d 633 (1997). The trial court in O’Dell
interpreted this holding as “absolutely barring any
exceptional downward departure sentence below the
range on the basis of youth.” O’Dell, 183 Wn.2d at 698.
O’Dell reversed the trial court and specified that
Ha’mim did not bar trial courts from considering youth
at sentencing. Id. at 689. Rather, O’Dell characterized
Ha’mim as holding “only that the trial court may not
impose an exceptional sentence automatically on the
basis of youth, absent any evidence that youth in fact
diminished a defendant’s culpability.” Id. Hence,

59a
rather than directly overturning Ha’mim, O’Dell
merely “disavowed” Ha’mim’s reasoning to the extent
that it was inconsistent with its own. Id. at 696.
Cornelio argues that under O’Dell he is entitled to
a new sentencing hearing so that the trial court can be
allowed to consider his youth as a mitigating factor.
Although Cornelio was tried and convicted as an adult,
his crimes were committed when he was between 14
and 16 years old.
After both parties filed their briefs, our Supreme
Court held that O’Dell did not constitute a “significant
change in the law.”20 In re Pers. Restraint of Light-Roth,
191 Wn.2d 328, 422 P.3d 444, reconsideration denied
(2018). Light-Roth reasoned that the O’Dell court had
“explained that Ha’mim did not preclude a defendant
from arguing youth as a mitigating factor but, rather,
it held that the defendant must show that his youthfulness relates to the commission of the crime.” Id. at
336. Hence, “RCW 9.94A.535(1)(e) has always provided
the opportunity to raise youth for the purpose of requesting an exceptional sentence downward, and mitigation based on youth is within the trial court’s
discretion.” Id.
Because we are bound by Light-Roth’s holding
that O’Dell did not constitute a significant change in

20

Although Light-Roth interpreted the concept of “significant change in the law” for the purposes of the exceptions to the
one year PRP time bar under RCW 10.73.090(1), its reasoning
applies equally to that phrase’s usage in RAP 16.4(c)(4).

60a
the law, we reject Cornelio’s argument for resentencing
based on O’Dell.
Cornelio also points to Houston-Sconiers as a recent expansion of the principles espoused in O’Dell justifying resentencing.21 He notes that Houston-Sconiers
held that “[t]rial courts must consider mitigating qualities of youth at sentencing and must have discretion
to impose any sentence below the otherwise applicable
[sentencing range].” 188 Wn.2d at 21.
As Light-Roth held, trial courts have always had
this discretion to impose an exceptional sentence based
on the youth of the defendant. This, however, does not
resolve whether the requirement to consider the characteristics of youth significantly changes prior law. To
answer that question, we follow Miller, 185 Wn.2d at
114, and ask whether Houston-Sconiers overturns a
prior appellate decision that was determinative of a
material issue. Houston-Sconiers does not overturn
any such decision.
First, the requirement to consider youth in HoustonSconiers did not overturn Ha’mim. As clarified by
21

The State argues that Cornelio cannot rely on HoustonSconiers because it was decided after his case was “final” for the
purposes of retroactivity analysis. Br. of Resp’t at 25, 26 n.3. But
in the context of RAP 16.4(c), there is no need for the petitioner’s
case to be ongoing for us to consider whether there has been a
significant change in the law that should be applied retroactively.
As Cornelio’s petition is timely, it need not meet the retroactivity
criteria of RCW 10.73.100(6) as an exception to the one-year time
bar under RCW 10.73.090(1). Rather, it must meet the retroactivity standard of RAP 16.4(c)(4).

61a
O’Dell and Light-Roth, Ha’mim did not preclude a defendant from arguing youth as a mitigating factor, but
held that the defendant must show that his youthfulness relates to the commission of the crime. LightRoth, 191 Wn.2d at 336. Houston-Sconiers recognized
the constitutional differences between children and
adults and required courts to consider the characteristics of youth in sentencing. 188 Wn.2d at 18. These
principles do not overturn the holdings of Ha’mim, as
clarified by O’Dell and Light-Roth.
For similar reasons, Houston-Sconiers also did not
overturn State v. Scott, 72 Wn. App. 207, 866 P.2d 1258
(1993). Scott deemed the argument that youth limited
the defendant’s capacity to appreciate the wrongfulness of his conduct or to conform his conduct to the requirements of the law as one that “borders on the
absurd.” Scott, 72 Wn. App. at 218. However, LightRoth also clarified that Scott did not categorically preclude consideration of youth, but rather, like Ha’mim,
required the defendant to explain how his youthfulness related to the commission of the crime. 191 Wn.2d
at 336. Although Houston-Sconiers repudiates the apparent attitude of Scott, it cannot be said to have overturned its holdings.
Houston-Sconiers merely “ ‘settle[d] a point of law
without overturning prior precedent,’ ” and so does not
constitute a significant change in the law under RAP
16.4(c)(4). Miller, 185 Wn.2d at 114-15 (quoting Turay,
150 Wn.2d at 83). Cornelio’s argument for resentencing based on Houston-Sconiers therefore fails.

62a
Neither Houston-Sconiers nor O’Dell constitute a
significant change in the law material to Cornelio’s
sentence. Therefore, Cornelio’s petition for relief under
RAP 16.4(c)(4) fails.
CONCLUSION
We deny Cornelio’s petition.
A majority of the panel having determined that
this opinion will not be printed in the Washington Appellate Reports, but will be filed for public record in
accordance with RCW 2.06.040, it is so ordered.
/s/ Bjorgen, J.P.T.
Bjorgen, J.P.T.
We concur:
/s/ Worswick, P.J.
Worswick, P.J.
/s/ Johanson, J.
Johanson, J.

63a
IN THE SUPREME COURT OF
THE STATE OF WASHINGTON
In the Matter of the
Personal Restraint of:
SAID OMER ALI,
Petitioner.

) No. 95578-6
) En Banc
)
) Filed September 17, 2020
)

MONTOYA-LEWIS, J.—“ ‘Children are different.’ ”
State v. Houston-Sconiers, 188 Wn.2d 1, 8, 391 P.3d 409
(2017) (quoting Miller v. Alabama, 567 U.S. 460, 480,
132 S. Ct. 2455, 183 L. Ed. 2d 407 (2012)). The Eighth
Amendment to the United States Constitution requires our criminal justice system to address this difference when punishing children. Central to this
requirement is that courts must take into account the
differences between children and adults in criminal
sentencing. State v. Ramos, 187 Wn.2d 420, 428, 387
P.3d 650 (2017). Children’s ability to assess risk and
make judgments varies distinctly from that of adults
because the brain is not fully mature before adulthood.
Miller, 567 U.S. at 471-72. Differences in brain development mean that children possess lessened culpability, poorer judgment, and greater capacity for change
than adults. Id. In order to comply with the Eighth
Amendment, courts must consider the mitigating qualities of youth and have discretion to impose a proportional punishment based on those qualities. HoustonSconiers, 188 Wn.2d at 19. In Houston-Sconiers, we
recognized these Eighth Amendment requirements
and held that “[t]rial courts must consider mitigating

64a
qualities of youth at sentencing and must have discretion to impose any sentence below the otherwise applicable [Sentencing Reform Act of 1981 (SRA), ch. 9.94A
RCW] range and/or sentence enhancements.” Id. at 21.
In this case and its companion, In re Personal Restraint of Domingo-Cornelio, No. 97205-2, slip op. (Wash.
Sept. 17, 2020), https://www.courts.wa.gov/opinions/,
we consider whether the dual requirements of HoustonSconiers apply retroactively on collateral review. We
hold that Houston-Sconiers constitutes a significant
and material change in the law that requires retroactive application. Further, we hold that Ali has established actual and substantial prejudice, and we
remand to superior count for resentencing consistent
with Houston-Sconiers.
I.

FACTS AND PROCEDURAL HISTORY

A. Factual Background
In 2008, Said Omer Ali was arrested for his involvement in a series of robberies. Each of the crimes
involved a group of male perpetrators, and four victims
identified Ali as one of the assailants. A jury found Ali
guilty of five counts of robbery in the first degree, two
counts of attempted robbery in the first degree, and one
count of assault in the first degree. Two of the robbery
counts and the assault count carried a deadly weapon

65a
enhancement. Ali was 16 years old at the time of the
crimes, but he was charged and tried in adult court.1
Under the SRA, Ali faced a sentence between 240
and 318 months for the substantive charges, plus 24
months each for 3 weapon enhancements. Because the
weapon enhancements must run consecutively under
the SRA, the standard sentence range was 312 to 390
months. RCW 9.94A.533(4)(e).
At sentencing, the State recommended imprisonment for 390 months, which was the high end of the
standard range for adults and included the three mandatory consecutive weapon enhancements. The State
argued that youth was not a factor that would justify
an exceptional sentence, citing State v. Ha’mim, 82 Wn.
App. 139, 916 P.2d 971 (1996), aff ’d, 132 Wn.2d 834,
940 P.2d 633 (1997), overruled in part by State v. O’Dell,
183 Wn.2d 680, 696, 358 P.3d 359 (2015).
Defense counsel requested an exceptional sentence of 10 years (120 months), which was below the
standard range, and argued that the presumptive
range was “grossly excessive in light of the SRA purposes and that the Court does have legal and factual
basis to impose something exceptional below that.” 13
Verbatim Report of Proceedings (Mar. 27, 2009) (VRP)
at 1419-20, 1423. The defense maintained that the
1

There was a dispute over Ali’s age at trial, but all parties
now agree that Ali was 16 years old at the time of the crimes. The
State concedes that Ali is entitled to an order correcting his date
of birth on the judgment and sentence to reflect his true year of
birth as 1992.

66a
mitigating factors listed in the SRA were nonexclusive
and that the court should consider Ali’s age and background. Ali was only 17 years old at sentencing, and
the State recommended a sentence of 32.5 years. Defense counsel argued that Ali was “a young adolescent”
who “endured extreme turmoil in his young life” and
that “[v]ery little will be gained by crushing his hope
and spirit by sending him away for two lifetimes.” 13
VRP at 1420-23.
Ali presented mitigating testimony regarding his
youthfulness and difficult childhood. Dozens of members of his community submitted letters to the court
requesting leniency in his sentencing. Four people also
spoke on his behalf at the sentencing hearing, describing Ali as young and inexperienced but capable of reform. One community member explained that Ali “has
dealt with gang dealing and peer pressure.” 13 VRP at
1426. Another described him as “a young boy who is a
victim for his whole life, back at home and here” because Ali was born in the midst of a civil war, grew up
in refugee camps, and was placed in high school instead of middle school when he arrived in the United
States at age 13. 13 VRP at 1429. A family friend asked
the court to
look this young boy on a keen eye, give him
another chance to rebuild his life, become an
active citizen again. And I am sure he will
thrive and grow up with dignity and respect
with others and to himself. To conclude my
statement, as a father, a parent, and a

67a
humanitarian, our children make mistakes.
And he’s one of those.
13 VRP at 1428.
After hearing the statements from the community
members on Ali’s behalf, the sentencing judge explained,
Well, it’s very clear that Mr. Ali has wonderful
community and family support. These are individuals of great stature in the community
and it is clear that he has a lot of folks looking
out for him. But I can’t simply look at the popular support, I have to look at the law. And the
question is what does the law require me to
impose and is there any justification under
the law for imposing a sentence below the
standard range. And I cannot find that there
is any legal justification that would allow
that. So I find that the law requires me to impose a sentence within the standard range.
13 VRP at 1431-32. The court imposed a total sentence
of 312 months: the lowest possible sentence within the
standard range with the mandatory enhancements.
The low end of the standard range for each charge
would run concurrently, and the mandatory deadly
weapon enhancements would run consecutively. The
sentencing judge acknowledged that 312 months “is a
huge sentence for someone of your age. And I’m very
mindful of that. But the law does not allow me to depart from it simply because of your age.” 13 VRP at
1432. The court also made a point “to note, for the record that the sentence that was imposed was the lowest

68a
sentence that I legally felt I had the option of imposing
in this case. I recognize Mr. Ali’s young age and that is
primarily the reason why that was imposed.” 13 VRP
at 1436.
B.

Procedural History

Ali appealed unsuccessfully, and his judgment and
sentence became final in 2011. Ali filed this personal
restraint petition (PRP) in the Court of Appeals in
2017, asserting that his continued restraint is unlawful under RAP 16.4(c)(2). He argues that even though
it was filed more than a year after his judgment and
sentence became final, his petition is timely under
RCW 10.73.100(6)’s exception to the time bar: there
has been a significant change in substantive law that
is material to his sentence and sufficient reasons exist
to require retroactive application of the changed legal
standard. He argues that Houston-Sconiers provides a
basis both to overcome the time bar and to entitle him
to relief.
The Court of Appeals transferred his petition to
this court as a successive petition that raises new
grounds for relief. We set Ali’s petition for full consideration on the merits and also granted review of a companion case, Domingo-Cornelio, slip op. at 4.
II.

ANALYSIS

Ali was sentenced as an adult for crimes he committed as a child. He seeks collateral review of that

69a
sentence. He filed this PRP more than one year after
his judgment and sentence became final, so the petition is untimely unless it is based solely on a statutory
exception to the time bar. RCW 10.73.090, .100. Ali relies on the exception for a significant change in the law
that is material to his sentence and requires retroactive application. RCW 10.73.100(6). Ali argues he can
overcome the time bar and is entitled to relief based on
Houston-Sconiers. We agree.
In Houston-Sconiers, we held that when juveniles
are adjudicated as adults, “[t]rial courts must consider
mitigating qualities of youth at sentencing and must
have discretion to impose any sentence below the otherwise applicable SRA range and/or sentence enhancements.” 188 Wn.2d at 21 (emphasis added). There, 16and 17-year-old defendants were adjudicated as adults
for a series of robberies they committed on Halloween.
Id. at 8. The charges triggered the mandatory automatic decline statute, RCW 13.04.030(1)(e)(v), and
both defendants were tried and convicted as adults. Id.
at 12. Each was convicted of several counts of robbery
in the first degree, one count of conspiracy to commit
robbery, one count of assault in the second degree, and
multiple firearm enhancements. Id. Under the SRA,
one defendant faced a sentencing range of 501-543
months, which included 372 months for the firearm enhancements; the other faced a sentencing range of 441483 months, which included 312 months for the firearm enhancements. Id. at 12-13. The State recommended, and the trial court accepted, an exceptional
sentence below the standard range: zero months on

70a
each of the substantive counts for both defendants. Id.
at 13. The defendants received 372 and 312 months,
respectively, the full time for the consecutive weapon
enhancements. Id. At sentencing, the judge heard mitigating testimony regarding both defendants’ youth
but “expressed frustration at his inability to exercise
greater discretion over the sentences imposed.” Id. The
Court of Appeals affirmed the convictions and rejected
the defendants’ challenges to their sentences. Id.
On review, we traced the United States Supreme
Court’s recent decisions that “explicitly hold that the
Eighth Amendment to the United States Constitution
compels us to recognize that children are different.” Id.
at 18; see, e.g., Miller, 567 U.S. at 479-80 (the Eighth
Amendment forbids mandatory sentences of life without parole (LWOP) for juvenile offenders); Graham v.
Florida, 560 U.S. 48, 74, 130 S. Ct. 2011, 176 L. Ed. 2d
825 (2010) (the Eighth Amendment forbids LWOP for
non-homicide juvenile offenders); Roper v. Simmons,
543 U.S. 551, 578, 125 S. Ct. 1183, 161 L. Ed. 2d 1
(2005) (the Eighth Amendment forbids the death penalty for juvenile offenders). “In each case, [Roper, Graham, and Miller,] the Court found that legitimate
penological goals failed to justify the sentences [that
it] invalidated as applied to youth.” Id. at 19 n.4. Those
cases held that certain punishments are impermissible
because of three significant differences between children and adults: (1) juveniles are more likely to possess
a “lack of maturity and an underdeveloped sense of responsibility . . . [and t]hese qualities often result in impetuous and ill-considered actions and decisions,” (2)

71a
“juveniles are more vulnerable or susceptible to negative influences and outside pressures, including peer
pressure,” and (3) “the character of a juvenile is not as
well formed as that of an adult [and t]he personality
traits of juveniles are more transitory, less fixed,” and
more capable of reform. Roper, 543 U.S. at 569-70 (citing studies).
In Houston-Sconiers, we recognized that those
cases invalidated certain sentences for juvenile offenders because children have diminished culpability,
which renders some punishments “unconstitutionally
disproportionate for youth.” 188 Wn.2d at 19 n.4. We
concluded that
[t]hese cases make two substantive rules of
law clear: first, “that a sentencing rule permissible for adults may not be so for children,”
rendering certain sentences that are routinely
imposed on adults disproportionately too
harsh when applied to youth, and second, that
the Eighth Amendment requires another protection, besides numerical proportionality, in
juvenile sentencings—the exercise of discretion.
Id. (citation omitted) (quoting Miller, 567 U.S. at 481).
We held that “sentencing courts must have complete
discretion to consider mitigating circumstances associated with the youth of any juvenile defendant, even in
the adult criminal justice system. . . . To the extent our
state statutes have been interpreted to bar such discretion with regard to juveniles, they are overruled.”
Id. at 21 (footnote omitted) (citing State v. Brown, 139

72a
Wn.2d 20, 29, 983 P.2d 608 (1999)). Finally, we held
that “[t]rial courts must consider mitigating qualities
of youth at sentencing and must have discretion to impose any sentence below the otherwise applicable SRA
range and/or sentence enhancements.” Id. (emphasis
added).
Following Miller, Graham, and Roper, HoustonSconiers identified a category of sentences that are beyond courts’ authority to impose: adult standard SRA
ranges and enhancements that would be disproportionate punishment for juveniles with diminished culpability. Recognizing that “legitimate penological goals
fail[ ] to justify” certain sentences as applied to youth,
we held that courts must exercise discretion and consider the mitigating qualities of youth to determine
whether standard SRA ranges and enhancements are
proportionate for a particular juvenile in order to avoid
imposing unconstitutionally disproportionate sentences. Id. at 19 n.4. Thus, we recognized that the
Eighth Amendment requires that the sentencing judge
consider the defendant’s youthfulness and retain absolute discretion to impose a lower sentence. Id. at 34.
Not long after we decided Houston-Sconiers, we
accepted review of In re Personal Restraint of Meippen,
193 Wn.2d 310, 440 P.3d 978 (2019). A majority of the
court declined to reach the question of retroactivity in
that case, instead holding that “[e]ven assuming Meippen can show that Houston-Sconiers is a significant,
material change in the law that applies retroactively,
[the petitioner was] not entitled to collateral relief because he [did] not demonstrate that any error actually

73a
and substantially prejudiced him.” Id. at 312. As discussed below, Ali does demonstrate actual and substantial prejudice, so we must decide whether
Houston-Sconiers is a significant and material change
in the law that requires retroactive application.2
A. Houston-Sconiers Requires Retroactive Application
Under RCW 10.73.100(6), the one year time limit
to file a PRP does not apply when a petition is based
on a significant change in the law, which is material to
the conviction or sentence, and sufficient reasons exist
to require retroactive application of the changed legal
standard. Houston-Sconiers constitutes such a change
in the law, and Ali’s PRP is, therefore, timely.

2

Although we assumed without deciding the retroactivity
question in Meippen and dismissed that PRP based on the petitioner’s failure to establish prejudice, we are not required to conduct the analysis in that order. Whether a PRP is exempt from
the one year time limit under RCW 10.73.090 “is a threshold inquiry; we do not have to decide whether the entire claim is completely meritorious in order to decide whether it fits within an
exception to the time bar.” In re Pers. Restraint of Schorr, 191
Wn.2d 315, 320, 422 P.3d 451 (2018) (citing In re Pers. Restraint
of Yung-Cheng Tsai, 183 Wn.2d 91, 99-108, 351 P.3d 138 (2015)).
“To actually obtain relief on collateral review based on a constitutional error the petitioner must demonstrate [prejudice] by a preponderance of the evidence.” In re Pers. Restraint of Davis, 152
Wn.2d 647, 671, 101 P.3d 1 (2004) (emphasis added).

74a
1.

Significant Change in the Law

Houston-Sconiers represents a significant change
in the law because it requires the sentencing count to
consider the youthfulness of the defendant. A significant change in the law exists “when an intervening appellate decision overturns a prior appellate decision
that was determinative of a material issue.” State v.
Miller, 185 Wn.2d 111, 114, 371 P.3d 528 (2016) (citing
In re Pers. Restraint of Yung-Cheng Tsai, 183 Wn.2d 91,
104, 351 P.3d 138 (2015)). Prior to Houston-Sconiers,
we held that the SRA “deprives a sentencing court of
discretion to impose an exceptional sentence downward below the time specified for a mandatory deadly
weapon enhancement.” Brown, 139 Wn.2d at 22. Under
Brown, Ali’s sentencing court was required to run each
of his weapon enhancements consecutively and had no
discretion to run them concurrently. In HoustonSconiers, we stated explicitly that we overruled any interpretation that would bar such discretion with regard to juveniles, citing to Brown and recognizing that
the case failed to address juveniles. 188 Wn.2d at 21
n.5. Prior to Houston-Sconiers, sentencing courts did
not have discretion to consider the defendant’s age at
sentencing as a basis to run weapon enhancements
concurrently. Thus, Houston-Sconiers is a significant
change in the law because it overruled Brown.
Another “ ‘test to determine whether an [intervening case] represents a significant change in the law is
whether the defendant could have argued this issue
before publication of the decision.’ ” Miller, 185 Wn.2d
at 115 (alteration in original) (internal quotation

75a
marks omitted) (quoting In re Pers. Restraint of Lavery,
154 Wn.2d 249, 258-59, 111 P.3d 837 (2005)). Even if
Ali’s sentencing court had discretion to run the sentence enhancements concurrently before HoustonSconiers, Ali could not have argued that the court
must consider the mitigating factors of his youthfulness and that it had absolute discretion to impose any
sentence below the applicable SRA range and sentence
enhancements. 188 Wn.2d at 21. Ali could have, and
did, argue that the court had some discretion and that
it should consider youthfulness. But before HoustonSconiers, he could not have argued that the court was
required to consider youthfulness and could impose a
lesser sentence based on youth. Under either test proffered to demonstrate a significant change in the law,
Houston-Sconiers qualifies.
2.

Materiality

Houston-Sconiers is material to Ali’s case. Ali was
sentenced to a standard adult range under the SRA,
which included mandatory consecutive weapon enhancements, just as in Houston-Sconiers. If HoustonSconiers applies retroactively, it would affect a materially determinative issue in Ali’s petition: whether the
sentencing judge had discretion to impose a lower sentence given the mitigating testimony regarding his
youthfulness. The sentencing judge heard testimony
and argument regarding Ali’s youthfulness but felt
that she had no discretion to impose any sentence below the bottom of the standard range, explaining that
“the law does not allow me to depart from it simply

76a
because of your age.” 13 VRP at 1432. If HoustonSconiers applies retroactively, it would materially affect Ali’s sentence because it would allow the sentencing judge discretion to run the weapon enhancements
concurrently or impose any exceptional sentence
downward based on youthfulness.3 Ali received the
kind of sentence that implicates Houston-Sconiers;
therefore, that case is material.
The State argues that Houston-Sconiers is a significant change in the law but is not material to Ali’s
case because Houston-Sconiers is limited to effective
life sentences. Nothing in Houston-Sconiers limited the
holding to life sentences or the functional equivalent.
In fact, one of the defendants in Houston-Sconiers received a sentence of 312 months, the same as Ali. 188
Wn.2d at 13. We explicitly stated that “sentencing
courts must have complete discretion to consider mitigating circumstances associated with the youth of any
juvenile defendant, even in the adult criminal justice
system,” and that “[t]rial courts must consider mitigating qualities of youth at sentencing and must have discretion to impose any sentence below the otherwise
applicable SRA range and/or sentence enhancements.”
Id. at 21 (emphasis added).4 Houston-Sconiers applies
3

If, for example, the sentencing judge had run enhancements concurrently, the sentence would have been shortened by
48 months.
4
See also State v. Gilbert, 193 Wn.2d 169, 175-76, 438 P.3d
133 (2019) (“Our opinion in [Houston-Sconiers] cannot be read as
confined to the firearm enhancement statutes as it went so far as
to question any statute that acts to limit consideration of the mitigating factors of youth during sentencing.”).

77a
to adult standard range sentences as well as mandatory enhancements under the SRA imposed for crimes
committed while the defendant was a child. This is material to Ali’s case because he was sentenced as an
adult under the SRA for crimes he committed as a
child.
3.

Retroactivity

Houston-Sconiers announced a new substantive
constitutional rule that must be applied retroactively
upon collateral review. Washington courts follow the
test laid out in Teague v. Lane, 489 U.S. 288, 109 S. Ct.
1060, 103 L. Ed. 2d 334 (1989) to determine whether a
rule applies retroactively. See In re Pers. Restraint of
Colbert, 186 Wn.2d 614, 623-26, 380 P.3d 504 (2016).
Under Teague, a new rule applies retroactively on collateral review only if it is a new substantive rule of
constitutional law or a watershed rule of criminal procedure. Montgomery v. Louisiana, ___ U.S. ___, 136
S. Ct. 718, 728, 193 L. Ed. 2d 599 (2016). HoustonSconiers applies retroactively because it announced
(1) a new rule (2) of constitutional magnitude (3) that
is substantive.
First, Houston-Sconiers announced a new rule.
Whether there is a “new rule” under Teague is a distinct inquiry from whether there has been a significant
change in the law. Tsai, 183 Wn.2d at 103-05. A new
rule is one that breaks new ground or imposes a new
obligation, or “ ‘if the result was not dictated by precedent existing at the time the defendant’s conviction

78a
became final.’ ” Id. at 104 (internal quotation marks
omitted) (quoting Stale v. Evans, 154 Wn.2d 438, 444,
114 P.3d 627 (2005)). “ ‘If before the opinion is announced, reasonable jurists could disagree on the rule
of law, the rule is new.’ ” Id. (quoting Evans, 154 Wn.2d
at 444). The dual mandates of Houston-Sconiers, that
sentencing courts must consider youth and must have
discretion to impose any exceptional sentence downward based on youth, were not dictated by existing
precedent at the time Ali’s conviction became final.
Reasonable jurists could disagree whether the court
had such discretion or whether they could consider
youth; however, because no prior precedent required
courts to do so, Houston-Sconiers announced a new
rule.
Second, we decided Houston-Sconiers on constitutional grounds. We concluded that “the Eighth Amendment to the United States Constitution compels us to
recognize that children are different” and “courts must
address those differences in order to comply with the
Eighth Amendment[ ] with discretion to consider the
mitigating qualities of youth.” Houston-Sconiers, 188
Wn.2d at 18-19. We reached this conclusion based on
rules stemming from Roper, Graham, and Miller,
which we identified as “substantive rules”: some sentences routinely imposed on adults are disproportionately too harsh when imposed on children who lack
adult culpability, and the Eighth Amendment requires
the exercise of discretion in order to protect such children from disproportionate punishment. Id. at 19 n.4.

79a
Third, Houston-Sconiers announced a substantive
constitutional rule. “Substantive rules . . . set forth categorical constitutional guarantees that place certain
criminal laws and punishments altogether beyond
the State’s power to impose” and include “ ‘rules prohibiting a certain category of punishment for a class of
defendants because of their status or offense.’ ” Montgomery, 136 S. Ct. at 729, 728 (quoting Penry v.
Lynaugh, 492 U.S. 302, 330, 109 S. Ct. 2934, 106
L. Ed. 2d 256 (1989), abrogated on other grounds by Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153
L. Ed. 2d 335 (2002)). “Procedural rules, in contrast,
are designed to enhance the accuracy of a conviction or
sentence by regulating ‘the manner of determining the
defendant’s culpability.’ ” Id. at 730 (quoting Schriro v.
Summerlin, 542 U.S. 348, 353, 124 S. Ct. 2519, 159
L. Ed. 2d 442 (2004)). Houston-Sconiers established a
category of punishments that are prohibited: adult
standard SRA ranges and enhancements that would
be disproportionate punishment for juveniles who possess diminished culpability. It also established a mechanism necessary to effectuate that substantive rule:
sentencing courts must consider the mitigating qualities of youth and have discretion to impose sentences
below what the SRA mandates.
Following Miller, Graham, and Roper, HoustonSconiers recognized that “legitimate penological goals
fail[ ] to justify” certain sentences as applied to youth,
and courts must have the discretion to impose sentences below the SRA, proportionate to the individual’s
culpability. 188 Wn.2d at 19 n.4. Without the context of

80a
a defendant’s youthfulness and the discretion to impose something less than what the SRA mandates,
sentencing counts cannot protect juveniles’ Eighth
Amendment right to be free from unconstitutionally
disproportionate punishment. The discretion and consideration that Houston-Sconiers requires are necessary to effectuate the substantive rule that certain
punishments routinely imposed on adults are unconstitutional as applied to youth.
Miller and Montgomery compel the conclusion
that Houston-Sconiers is a new substantive constitutional rule. Miller held that mandatory LWOP sentences for juveniles violate the Eighth Amendment
because “[b]y making youth (and all that accompanies
it) irrelevant to imposition of that harshest prison
sentence, such a scheme poses too great a risk of disproportionate punishment.” 567 U.S. at 479. In Montgomery, the Supreme Court explained that “Miller took
as its stalling premise the principle established in
Roper and Graham that ‘children are constitutionally
different from adults for purposes of sentencing.’ ” 136
S. Ct. at 733 (quoting Miller, 567 U.S. at 471). The
Count concluded that mandatory LWOP for children
constitutes cruel and unusual punishment because
those differences “result from children’s ‘diminished
culpability and greater prospects for reform,” and “ ‘the
distinctive attributes of youth diminish the penological
justifications’ ” for imposing certain punishments on
juveniles. Id. (quoting Miller, 567 U.S. at 471-72). A life
sentence for a child is rarely constitutional, and the
sentencing count must exercise discretion and consider

81a
youth and its effect on a child’s culpability and capacity
for change in order to distinguish between “children
whose crimes reflect transient immaturity and those
rare children whose crimes reflect irreparable corruption.” Id. at 734.5
The same constitutional principles form the foundation of Houston-Sconiers. In Houston-Sconiers, we
recognized that the Eighth Amendment compels courts
to treat children differently from adults because the legitimate penological goals fail to justify certain sentences for juveniles in light of the mitigating qualities
of youth. 188 Wn.2d at 18. We concluded that the
Eighth Amendment requires courts to consider the
mitigating qualities of youth at sentencing and to have
absolute discretion to impose anything less than the
standard adult sentence because children possess diminished culpability, and “certain sentences that are
routinely imposed on adults [are] disproportionately
too harsh when applied to youth.” Id. at 18, 19 n.4.
Houston-Sconiers is substantive because it placed certain adult sentences beyond counts’ authority to impose on juveniles who possess such diminished

5

As the dissent correctly acknowledges, Miller contained
both a substantive and a procedural component: Miller categorically banned LWOP for juveniles whose crimes reflect the transient immaturity of youth and required the exercise of discretion
as the mechanism to protect that substantive rule. Like Miller,
Houston-Sconiers’s procedural component (consideration of youth
and discretion to impose sentences below the SRA) is necessary
to achieve the substantive protection (punishment proportionate
to culpability).

82a
culpability that the adult standard SRA ranges and
enhancements would be disproportionate punishment.
The fact that a juvenile could receive a sentence
within the adult standard range if the sentencing court
complies with the dual requirements of HoustonSconiers does not render Houston-Sconiers procedural.
Miller did not foreclose a sentencing court’s ability to
impose LWOP on all juveniles; it acknowledged that
such a punishment may be appropriate for “ ‘the rare
juvenile offender whose crime reflects irreparable corruption,’ ” as long as the sentencing court takes the defendant’s youth into consideration as the Eighth
Amendment requires. Miller, 567 U.S. at 479-80 (quoting Roper, 543 U.S. at 573). But the sentencing court
must engage in this consideration in order to determine whether the juvenile falls within the category of
people for whom such a severe and rarely imposed
punishment would be permissible. Similarly, under
Houston-Sconiers, sentencing courts must exercise discretion and consider youth to determine whether the
child falls within the category of juveniles for whom
standard adult sentences or enhancements are permissible. Like in Miller, Houston-Sconiers announced a
procedural component as a mechanism to protect the
substantive rule. The substantive protection of proportionate punishment ceases to exist without the mechanism to determine whether the juvenile belongs in
the class of culpability that would allow adult sentences versus the more likely outcome of a sentence
that reflects the juvenile’s immaturity. This does not

83a
transform Houston-Sconiers’s substantive rule into a
procedural rule.
In Montgomery, the Supreme Court held that
Miller was not procedural because it “did more than
require a sentencer to consider a juvenile offender’s
youth before imposing life without parole; it established that the penological justifications for life
without parole collapse in light of ‘the distinctive attributes of youth.’ ” 136 S. Ct. at 734 (quoting Miller,
567 U.S. at 472). In reaching that conclusion, the Court
rejected the State’s argument that Miller announced a
procedural rule because it mandated a process of considering youth before imposing a particular sentence.
Id. at 734. The Court explained that that argument
conflates a procedural requirement necessary
to implement a substantive guarantee with a
rule that “regulate[s] only the manner of determining the defendant’s culpability.” There
are instances in which a substantive change
in the law must be attended by a procedure
that enables a prisoner to show that he falls
within the category of persons whom the law
may no longer punish. . . . Those procedural
requirements do not, of course, transform substantive rules into procedural ones.
Id. at 734-35 (alteration in original) (citations omitted)
(quoting Schriro, 542 U.S. at 353). The Court concluded
that Miller announced a substantive rule of constitutional law because “it rendered life without parole an
unconstitutional penalty for ‘a class of defendants because of their status’—that is, juvenile offenders

84a
whose crimes reflect the transient immaturity of
youth.” Id. at 734 (quoting Penry, 492 U.S. at 330).
Our holding in Houston-Sconiers contains the
same substantive and procedural components as Miller.
Houston-Sconiers followed Miller and its progeny,
which centered on the substantive guaranty of the
Eighth Amendment: punishment proportionate to culpability. Montgomery, 136 S. Ct. at 732-33 (“Protection
against disproportionate punishment is the central
substantive guarantee of the Eighth Amendment and
goes far beyond the manner of determining a defendant’s sentence.”). Like Miller, Houston-Sconiers includes a procedural component that specifies a method
of achieving its substantive requirement: courts must
consider youthfulness with the knowledge that they
have absolute discretion to impose any sentence less
than the standard adult sentence based on a finding of
diminished culpability due to youth.
Again, this does not render Houston-Sconiers procedural. Rather than merely establishing a manner of
determining the defendants’ culpability, HoustonSconiers prohibits certain punishments when imposed
without the consideration and discretion that the
Eighth Amendment requires. See Montgomery, 136
S. Ct. at 735 (“The hearing does not replace but rather
gives effect to Miller’s substantive holding that life
without parole is an excessive sentence for children
whose crimes reflect transient immaturity.”). HoustonSconiers prohibits a certain category of punishment
(adult standard SRA ranges and enhancements) for a
class of juvenile defendants because of their status

85a
(juveniles who possess such diminished capacity that
those punishments would be unconstitutionally disproportionate). That Houston-Sconiers prohibits a
broader category of punishments than LWOP or an effective life sentence is inapposite. The difference is one
of scope, not of kind.6 Like Miller, Houston-Sconiers
protects juveniles from receiving certain disproportionate sentences. Houston-Sconiers rendered certain
adult sentences beyond the courts’ authority to impose
on juveniles who possess such diminished culpability
that the standard SRA ranges and sentences would be
disproportionate punishment. The Eighth Amendment
requires both consideration of youthfulness and absolute discretion in order to avoid imposing unconstitutionally disproportionate sentences on juveniles.
Houston-Sconiers announced a new substantive rule
that must be applied retroactively.
Houston-Sconiers satisfies RCW 10.73.100(6)’s exemption to the time bar: (1) it constitutes a significant
change in the law (2) that is material to Ali’s sentence
and (3) requires retroactive application. Therefore,
6

To the extent the dissent argues that Houston-Sconiers is
not substantive because, as it contends, the reasoning of Roper,
Graham, and Miller should not apply to lesser sentences, the dissent’s dispute is with the holding of Houston-Sconiers itself, not
with our conclusion about the substantive nature of that holding.
In order for us to reconsider an established rule of law that is otherwise entitled to stare decisis, there must be a clear showing that
the rule is incorrect and harmful, or that the legal underpinnings
have changed or disappeared altogether. State v. Pierce, 195
Wn.2d 230, 240, 455 P.3d 647 (2020) (plurality opinion). No party
has argued that Houston-Sconiers is incorrect and harmful, or
that its legal underpinnings have changed, nor does the dissent.

86a
Ali’s PRP is timely under RCW 10.73.100(6), and he
may be entitled to relief. In order to obtain relief, he
must show that he was actually and substantially prejudiced by the error in sentencing and there are no
other adequate remedies available under the circumstances.
B.

Ali Demonstrates Actual and Substantial
Prejudice

“We have three available options when reviewing
a personal restraint petition: (1) dismiss the petition,
(2) transfer the petition to a superior court for a full
determination on the merits or a reference hearing, or
(3) grant the petition.” In re Pers. Restraint of Yates,
177 Wn.2d 1, 17, 296 P.3d 872 (2013). A petitioner must
demonstrate by a preponderance of the evidence that
he was actually and substantially prejudiced by the
constitutional error in order to obtain relief on collateral review. In re Pers. Restraint of Davis, 152 Wn.2d
647, 671-72, 101 P.3d 1 (2004). A reference hearing “is
appropriate where the petitioner makes the required
prima facie showing, but ‘the merits of the contentions
cannot be determined solely on the record.’ ” Yates, 177
Wn.2d at 18 (quoting In re Pers. Restraint of Heirs, 99
Wn.2d 80, 88, 660 P.2d 263 (1983)).
In Houston-Sconiers, we explained that the sentencing court should have considered
mitigating circumstances related to the defendant’s youth—including age and its “hallmark features,” such as the juvenile’s

87a
“immaturity, impetuosity, and failure to appreciate risks and consequences.” It must also
consider factors like the nature of the juvenile’s surrounding environment and family
circumstances, the extent of the juvenile’s participation in the crime, and “the way familial
and peer pressures may have affected him [or
her.]” And it must consider how youth impacted any legal defense, along with any factors suggesting that the child might be
successfully rehabilitated.
188 Wn.2d at 23 (alteration in original) (citations omitted) (quoting Miller, 567 U.S. at 477); see also Gilbert,
193 Wn.2d at 176. We also held that “sentencing courts
must have absolute discretion to depart as far as they
want below otherwise applicable SRA ranges and/or
sentencing enhancements.” Houston-Sconiers, 188
Wn.2d at 9.
Ali has demonstrated actual and substantial prejudice. His sentencing judge was presented with, and
considered, testimony and evidence regarding the mitigating factors of Ali’s youthfulness, but she found that
she lacked the discretion to impose an exceptional sentence downward based on those mitigating factors. The
State requested a high end standard sentence of 390
months. Ali’s defense counsel requested an exceptional
downward sentence of 10 years (120 months), arguing
that Ali was a “young adolescent” at the time of the
crimes, and “[v]ery little will be gained by crushing his
hope and spirit by sending him away for two lifetimes,
which is what the State is asking for.” 13 VRP at 1420,
1422. Ali presented letters and testimony from

88a
members of his community, who referenced his age, inexperience, and susceptibility to peer pressure, and the
fact that “children make mistakes.” 13 VRP at 1424-29.
Ali has demonstrated prejudice by a preponderance of the evidence. The judge imposed 312 months,
the minimum sentence she had discretion to impose
under the SRA. She imposed the lowest available sentence after hearing and considering testimony from
family, friends, and community members who knew Ali
well and described his inexperience, challenges with
peer pressure, and potential for rehabilitation. She
made a point to note for the record that she was imposing what she believed to be the lowest available sentence and that Ali’s age was the primary reason she
imposed the low end sentence.
Ali’s case is unlike Meippen, where the sentencing
judge imposed a high end standard range sentence but
said nothing about whether his discretion was limited
to the standard range and, instead, emphasized his
reasons for imposing a sentence at the high end of the
range. 193 Wn.2d at 313. While nothing in the record
in Meippen suggested that the sentencing judge would
have exercised discretion to depart from the SRA in
light of the defendant’s youth, id. at 317, here, the sentencing judge made a point to state that she was ordering the lowest sentence she had discretion to and that
she was doing so primarily because of Ali’s age.
Ali’s sentencing comported with only one of the
two constitutional requirements we announced in
Housion-Sconiers. The sentencing judge considered the

89a
mitigating factors of Ali’s youth and arguments for an
exceptional sentence, but because she did not have the
discretion to impose any sentence below the standard
SRA range and mandatory enhancements, she sentenced according to the SRA’s mandates for adult sentencing. Based on the record, it appears that more
likely than not, the judge would have imposed a lower
sentence had she understood that the Eighth Amendment requires absolute discretion to impose any sentence below the standard range based on youthful
diminished culpability. Since Houston-Sconiers applies
retroactively, Ali was actually and substantially prejudiced by the sentencing court’s (understandable) error.
C.

Ali Is Entitled to Resentencing

A court will only grant relief by a PRP if other remedies available to the petitioner are inadequate under
the circumstances. RAP 16.4(d). The State argues that
Washington’s Miller-fix statute, RCW 9.94A.730, is an
adequate remedy because it would allow Ali to petition
for early release after serving 20 years of his 26 year
sentence. We disagree.
The Miller-fix statute does not necessarily provide
a remedy to a Houston-Sconiers violation. RCW 9.94A.730
permits a person convicted of crimes committed when
they were under 18 years old to petition for early release after serving 20 years in confinement. After receiving the petition, the Department of Corrections
will assess the petitioner’s dangerousness and the
likelihood that they will engage in future criminal

90a
behavior. RCW 9.94A.730(3). The assessment at this
stage is not whether the person possessed adult culpability at the time of the crimes but whether they pose
a continued danger after 20 years of incarceration. In
Houston-Sconiers, we emphasized that sentencing
courts must consider the mitigating qualities of youth
and have absolute discretion “at the time of sentencing
itself, regardless of what opportunities for discretionary release may occur down the line.” 188 Wn.2d at 20
(emphasis added). We acknowledged that “[s]tatutes
like RCW 9.94A.730 may provide a remedy on collateral review,” but we viewed that statute as “just one
possible remedy . . . on postconviction review.” Id. at 23,
22 (emphasis added).
Additionally, Houston-Sconiers applies to all juveniles sentenced as adults under the SRA, including
those who received far less than life sentences. Id. at
21. While RCW 9.94A.730 might provide an adequate
remedy for a Miller violation, it may be grossly inadequate under the circumstances of a Houston-Sconiers
violation. As explained above, Houston-Sconiers is not
limited to life sentences, and, in this case, the Millerfix statute would still require Ali to serve most of
the sentence imposed in violation of Houston-Sconiers
before he could even be considered for early release.
Although Miller is limited to life sentences and de facto
life sentences, Houston-Sconiers applies to any adult
standard sentence imposed on a juvenile, so RCW

91a
9.94A.730 cannot provide an adequate remedy under
all circumstances.7
A statute that permits early release after 20 years
of incarceration based on rehabilitation is not always
an adequate remedy when a sentencing court fails to
comply with the dual mandates of Houston-Sconiers.
That case announced a rule requiring something more
than Miller. It is imperative for courts to consider
youthfulness at sentencing and for courts to have absolute discretion to impose any sentence below the
SRA, including as little as no prison time, for crimes
committed by children. Thus, under Houston-Sconiers,
Ali’s sentencing range went from 312-390 months to
0-390 months. RCW 9.94A.730 would permit Ali to petition for early release only after serving 240 months
of the 312 month sentence imposed in violation of
Houston-Sconiers. Under these circumstances, other
available remedies are inadequate, and Ali is entitled
to resentencing.

7

Compare State v. Scott, 190 Wn.2d 586, 594, 416 P.3d 1182
(2018) (the Miller-fix statute provided an adequate remedy for a
juvenile sentenced to 900 months because it transformed a de
facto life sentence without the possibility of parole to a life sentence with “ ‘some meaningful opportunity to obtain release based
on demonstrated maturity and rehabilitation’ ”) (quoting Miller,
567 U.S. at 479), with Domingo-Cornelio, slip op. at 14 n.8 (the
Miller-fix statute would not provide an adequate remedy for a petitioner sentenced to 20 years because it would not allow early
release until he served the full sentence imposed in violation of
Houston-Sconiers).

92a
III.

CONCLUSION

We hold that Houston-Sconiers is a significant and
material change in the law and that it announced a
new substantive constitutional rule that must be applied retroactively upon collateral review. Ali has established actual and substantial prejudice, and his
PRP is granted. We remand to superior court for resentencing consistent with Houston-Sconiers.
/s/ Montoya-Lewis, J

WE CONCUR:
/s/ González, J.
/s/ Gordon McCloud, J.
/s/ Yu, J.
/s/ Owens, J

/s/ Wiggins, JPT

JOHNSON, J. (dissenting)—I disagree with the majority’s conclusion that our cases establish a substantive
rule of constitutional interpretation requiring retroactive application—though I agree our cases can be read
to establish a procedural factor requiring sentencing
judges to consider general qualities of youth in considering the discretionary sentencing decision. Our cases,
however, also recognize that the sentencing framework

93a
under the Sentencing Reform Act of 1981, ch. 9.94A
RCW, continues to guide sentencing decisions for juveniles in adult court. In order to maintain principles of
consistency and finality in sentencing, I view our cases
as establishing additional procedural factors applicable to the sentencing process, and, as being procedural
not retroactive. I dissent.
ANALYSIS
This case asks us to decide whether State v. HoustonSconiers, 188 Wn.2d 1, 391 P.3d 409 (2017), announced
a new, substantive rule of constitutional law that applies retroactively. There, we held that “courts must
consider mitigating qualities of youth at sentencing
and must have discretion to impose any sentence below the otherwise applicable [Sentencing Reform Act
of 1981] range and/or sentence enhancements.” HoustonSconiers, 188 Wn.2d at 21. The majority reasons that
Houston-Sconiers must apply retroactively because it
established the same kinds of substantive and procedural components as the United States Supreme
Court’s decision in Miller v. Alabama, 567 U.S. 460, 132
S. Ct. 2455, 183 L. Ed. 2d 407 (2012), and Miller applies retroactively. See Montgomery v. Louisiana, ___
U.S. ___, 136 S. Ct. 718, 732, 193 L. Ed. 2d 599 (2016).
I disagree.
In my view, Houston-Sconiers does not contain a
substantive rule because, unlike Miller, it does not set
a category of punishment altogether beyond the State’s
power to impose for a class of offenders. To understand

94a
the distinction between substantive and procedural
rules, we must engage with the Eighth Amendment
analysis at the heart of the United States Supreme
Court’s juvenile sentencing decisions. U.S. CONST.
amend. VIII.
The United States Supreme Court has told us that
the Eighth Amendment prohibits cruel and unusual
punishments, including “ ‘extreme sentences that are
grossly disproportionate to the crime.’ ” Graham v.
Florida, 560 U.S. 48, 60, 130 S. Ct. 2011, 176 L. Ed. 2d
825 (2010) (internal quotations marks omitted) (quoting Harmelin v. Michigan, 501 U.S. 957, 1001, 111
S. Ct. 2680 115 L. Ed. 2d 836 (1991) (controlling opinion of Kennedy, J., concurring in part and concurring
in judgment)). Miller implicated two lines of United
States Supreme Court precedent regarding the proportionality of punishments. 567 U.S. at 470.
The first line of precedent “has adopted categorical
bans on sentencing practices based on mismatches
between the culpability of a class of offenders and the
severity of a penalty.” Miller, 567 U.S. at 470. These
categorical bans create substantive rules of constitutional law: they place certain punishments “altogether
beyond the State’s power to impose.” Montgomery, 136
S. Ct. at 729. Substantive rules are retroactive because
when the State imposes an unconstitutional sentence,
that punishment is always unlawful. When a substantive rule has eliminated the State’s power to impose a
particular punishment, the “possibility of a valid result
does not exist”—even “the use of flawless sentencing
procedures [cannot] legitimate a punishment where

95a
the Constitution immunizes the defendant from the
sentence imposed.” Montgomery, 136 S. Ct. at 730.
The second line of precedent holds that sentencing
laws that make the harshest punishments mandatory
pose “too great a risk of disproportionate punishment,”
so those sentences can be imposed only when a sentencing court is able to “consider the characteristics of
a defendant and the details of his offense” to ensure
the harshness of the punishment matches the individual offender’s culpability for the crime. Miller, 567 U.S.
at 479, 470. These cases condition the imposition of the
law’s harshest sentences on a particular procedure—
namely, a sentencing judge’s consideration of the offender’s individual culpability—“to enhance the accuracy of a . . . sentence by regulating ‘the manner of
determining the defendant’s culpability.’ ” Montgomery,
136 S. Ct. at 730 (quoting Schriro v. Summerlin, 542
U.S. 348, 353, 124 S. Ct. 2519, 159 L. Ed. 2d 442
(2004)). New procedural rules are generally not retroactive because they merely enhance the accuracy of
future sentencing rather than taking a category of
punishments out of the State’s hands altogether. Accordingly, the announcement of a new procedural rule
does not “have the automatic consequence of invalidating a defendant’s conviction or sentence.” Montgomery,
136 S. Ct. at 730. Automatically invalidating sentences
imposed under procedures that were understood to be
constitutional at the time would “seriously undermine
[ ] the principle of finality which is essential to the operation of our criminal justice system” and deprive
criminal law “of much of its deterrent effect.” Teague v.

96a
Lane, 489 U.S. 288, 309, 109 S. Ct. 1060, 103 L. Ed. 2d
334 (1989).
Drawing from both lines of precedent, in my view,
Miller announced both a new substantive rule and a
new procedural requirement. Miller’s substantive rule
“rendered life without parole an unconstitutional penalty for ‘a class of defendants because of their status’—
that is, juvenile offenders whose crimes reflect the
transient immaturity of youth”—because the distinctive attributes of youth are inconsistent with the penological justifications for imposing life without parole.
Montgomery, 136 S. Ct. at 734 (quoting Penry v.
Lynaugh, 492 U.S. 302, 330, 109 S. Ct. 2934, 106
L. Ed. 2d 256 (1989)). In order to enforce that categorical constitutional guaranty, Miller’s procedural component requires a sentencing judge to consider a
juvenile offender’s youth and attendant characteristics
“to separate those juveniles who may be sentenced to
life without parole from those who may not.” Montgomery, 136 S. Ct. at 735. These rules work together: “when
the Constitution prohibits a particular form of punishment for a class of persons, an affected prisoner receives a procedure through which he can show that he
belongs to the protected class.” Montgomery, 136 S. Ct.
at 735. Both rules apply to juvenile sentences imposed
after Miller.
However, only Miller’s substantive rule applies
to juvenile sentences imposed before Miller was decided. See Montgomery, 136 S. Ct. at 736. States must
ensure that juveniles whose crimes reflected only
transient immaturity will not be forced to serve a

97a
disproportionate sentence in violation of the Eighth
Amendment, but Miller “does not require States to relitigate sentences” so a sentencing judge can consider
youthfulness under the procedures Miller established
“in every case where a juvenile offender received mandatory life without parole.” Montgomery, 136 S. Ct. at
736. Instead, States can establish their own procedures to remedy such sentences retroactively, including “by permitting juvenile homicide offenders to be
considered for parole.” Montgomery, 136 S. Ct. at 736
(citing WYO. STAT. ANN. § 6-10-301(c) (2013) (“juvenile
homicide offenders eligible for parole after 25 years”)).1
Under the Eighth Amendment, the procedural sentencing requirements Miller prescribed do not apply
retroactively.
Houston-Sconiers announced a similar procedural
rule that should not apply retroactively. It does not bar
any particular punishment for a category of offender
but, instead, requires the sentencing court to consider
a juvenile offender’s youthful attributes with the
knowledge it has the discretion to impose a sentence
1

Two years ago, this court approved Washington’s similar “Miller fix” statute—RCW 9.94A.730, which allows juvenile offenders
sentenced as adults to petition for early release after serving 20
years—without dissent. State v. Scott, 190 Wn.2d 586, 597, 416
P.3d 1182 (2018) (“Montgomery provides that the Washington
Miller fix statute’s parole provision cures the Miller violation in
Scott’s case.”), 603 (Gordon McCloud, J., concurring) (agreeing
“that under current Eighth Amendment precedent, RCW
9.94A.730 . . . provides an adequate remedy for the Miller violation” and writing separately “to clarify that the adequacy of the
statutory remedy available to Scott . . . remains an open question
[only] under Washington law”).

98a
below the standard SRA range because of those attributes. 188 Wn.2d at 21. So long as those proper procedures are followed, Houston-Sconiers does not
categorically place any sentence beyond the authority
of the judge to impose. The majority seemingly recognizes this: “a juvenile could receive a sentence within
the adult standard range if the sentencing court complies with the dual requirements of Houston-Sconiers.”
Majority at 19. Because Houston-Sconiers does not categorically bar any SRA sentence for juvenile offenders,
it should not be viewed as announcing a substantive
rule. See Montgomery, 136 S. Ct. at 729 (“Substantive
rules . . . set forth categorical constitutional guarantees that place certain . . . punishments altogether beyond the State’s power to impose.”). Because HoustonSconiers did not announce a substantive rule, it does
not apply retroactively.
The majority disagrees, reasoning that “Miller and
Montgomery compel the conclusion that HoustonSconiers is a new substantive constitutional rule” because “[o]ur holding in Houston-Sconiers contains the
same substantive and procedural components as Miller.” Majority at 18, 21. I disagree because this conclusion, in my view, blurs the distinction between Miller’s
substantive and procedural components and consequently it mischaracterizes the nature of HoustonSconiers’ s holding in three ways.
First, I disagree with the majority’s claim that
Houston-Sconiers is like Miller because both “announced a procedural component as a mechanism to
protect the substantive rule.” Majority at 20. But

99a
unlike Miller, the majority’s description of HoustonSconiers fails to provide an adequate distinction between the substantive and procedural components.
The United States Supreme Court has discussed how
Miller’s substantive rule is distinct from the procedure
protecting the rule: “Even if a court considers a child’s
age before sentencing him or her to a lifetime in prison,
that sentence still violates the Eighth Amendment for
a child whose crime reflects ‘unfortunate yet transient
immaturity.” ’ ” Montgomery, 136 S. Ct. at 734 (quoting
Miller, 567 U.S. at 479 (quoting Roper v. Simmons, 543
U.S. 551, 573, 125 S. Ct. 1183, 161 L. Ed. 2d 1 (2005))).
Miller announced a substantive rule precisely because
it took a category of punishment (life without parole
sentences) off the table for a class of offenders (juveniles whose crimes reflect the transient immaturity of
youth) regardless of the procedures followed in imposing that punishment. In contrast, Houston-Sconiers announced a procedural rule because it took a category of
punishment (standard SRA sentences and enhancements) off the table for a class of offenders (juveniles)
unless the sentencing judge considers the mitigating
qualities of youth at sentencing with the knowledge it
has the discretion to impose a lesser sentence because of
those qualities. 188 Wn.2d at 21. What this means is
that the sentencing judge retains discretion to determine the appropriate sentence under the SRA and the
sentencing range remains the same.
That is the difference I see in these cases. Miller’s
substantive rule is categorical and distinct from its
procedural requirements, while Houston-Sconiers’s

100a
holding is conditional and can best be described in
terms of its procedural requirements.
Second, I disagree with the majority that the “fact
that a juvenile could receive a sentence within the
adult standard range” after Houston-Sconiers “does
not render Houston-Sconiers procedural.” Majority at
19. The majority bases this conclusion on the fact that
Miller applies retroactively even though “Miller did
not foreclose a sentencing court’s ability to impose
LWOP [life without parole] on all juveniles; it acknowledged that such a punishment may be appropriate for
‘the rare juvenile offender whose crime reflects irreparable corruption.’ ” Majority at 19-20 (quoting Miller,
567 U.S. at 479-80). But I view that reading of Miller
as being rejected by the United States Supreme Court
in Mongtomery v. Miller did not purport to categorically bar life without parole for all juvenile offenders:
“Miller drew a line between children whose crimes reflect transient immaturity and those rare children
whose crimes reflect irreparable corruption.” Montgomery, 136 S. Ct. at 734. That Miller’s substantive
rule does not bar life without parole for every single
juvenile offender does not make it equivalent to Houston-Sconiers’s procedural rules.
Finally, I disagree that the difference between
Miller and Houston-Sconiers “is one of scope, not of
kind.” Majority at 22. The United States Supreme Court
has reasoned: “Life-without-parole terms . . . ‘share some
characteristics with death sentences that are shared
by no other sentences.’ ” Miller, 567 U.S. at 474 (quoting Graham, 560 U.S. at 69). But Houston-Sconiers

101a
concerns the “other sentences” that do not share characteristics of life without parole or the death penalty.
According to Miller itself, that difference is one of kind
and not merely of scope.
And the difference between the “ultimate penalt[ies] for juveniles” and lesser sentences is crucial.
Miller, 567 U.S. at 475. After all, the Eighth Amendment “ ‘does not require strict proportionality between
crime and sentence,’ but rather ‘forbids only extreme
sentences that are grossly disproportionate to the
crime.’ ” Graham, 560 U.S. at 60 (internal quotations
marks omitted) (quoting Harmelin, 501 U.S. at 1001).
The analytical justifications that inform the substantive rules announced in Roper, Graham, and Miller
should not apply to the lesser sentences, however long
in duration.
While I agree Houston-Sconiers proscribes new,
better methods of determining a juvenile offender’s
culpability, not every juvenile offender previously sentenced as an adult is suffering from an unconstitutionally cruel and unusual punishment. That conclusion is
not supported by the United States Supreme Court’s
decisions in Roper, Graham, Miller, or Montgomery or
the Eighth Amendment itself. Accordingly, I dissent.

102a
CONCLUSION
I would hold that Houston-Sconiers’s rules are procedural and apply only prospectively. I would therefore
dismiss the personal restraint petition.
/s/ Johnson, J.
/s/ Madsen, J.
/s/ Stephens, C.J.

103a
Wash. Rev. Code § 9.94A.507 (2020)
Sentencing of sex offenders.
(1) An offender who is not a persistent offender
shall be sentenced under this section if the offender:
(a)

Is convicted of:

(i) Rape in the first degree, rape in the second degree, rape of a child in the first degree, child molestation in the first degree, rape of a child in the second
degree, or indecent liberties by forcible compulsion;
*

*

*

(2) An offender convicted of rape of a child in the
first or second degree or child molestation in the first
degree who was seventeen years of age or younger at
the time of the offense shall not be sentenced under
this section.
(3)(a) Upon a finding that the offender is subject
to sentencing under this section, the court shall impose
a sentence to a maximum term and a minimum term.
(b) The maximum term shall consist of the statutory maximum sentence for the offense.
(c)(i) Except as provided in (c)(ii) of this subsection, the minimum term shall be either within the
standard sentence range for the offense, or outside the
standard sentence range pursuant to RCW 9.94A.535,
if the offender is otherwise eligible for such a sentence.
(ii) If the offense that caused the offender to be
sentenced under this section was rape of a child in the

104a
first degree, rape of a child in the second degree, or
child molestation in the first degree, and there has
been a finding that the offense was predatory under
RCW 9.94A.836, the minimum term shall be either the
maximum of the standard sentence range for the offense or twenty-five years, whichever is greater. If the
offense that caused the offender to be sentenced under
this section was rape in the first degree, rape in the
second degree, indecent liberties by forcible compulsion, or kidnapping in the first degree with sexual motivation, and there has been a finding that the victim
was under the age of fifteen at the time of the offense
under RCW 9.94A.837, the minimum term shall be either the maximum of the standard sentence range for
the offense or twenty-five years, whichever is greater.
If the offense that caused the offender to be sentenced
under this section is rape in the first degree, rape in
the second degree with forcible compulsion, indecent
liberties with forcible compulsion, or kidnapping in the
first degree with sexual motivation, and there has been
a finding under RCW 9.94A.838 that the victim was, at
the time of the offense, developmentally disabled, mentally disordered, or a frail elder or vulnerable adult, the
minimum sentence shall be either the maximum of the
standard sentence range for the offense or twenty-five
years, whichever is greater.

105a
(d) The minimum terms in (c)(ii) of this subsection do not apply to a juvenile tried as an adult pursuant to RCW 13.04.030(1)(e) (i) or (v). The minimum
term for such a juvenile shall be imposed under (c)(i)
of this subsection.
*

*

*

Wash. Rev. Code § 9.94A.535 (2020)
Departures from the guidelines.
The court may impose a sentence outside the
standard sentence range for an offense if it finds, considering the purpose of this chapter, that there are substantial and compelling reasons justifying an
exceptional sentence. Facts supporting aggravated
sentences, other than the fact of a prior conviction,
shall be determined pursuant to the provisions of RCW
9.94A.537.
*
(1)
sider

*

*

Mitigating Circumstances—Court to Con-

The court may impose an exceptional sentence below the standard range if it finds that mitigating circumstances are established by a preponderance of the
evidence. The following are illustrative only and are
not intended to be exclusive reasons for exceptional
sentences.
*

*

*

106a
(e) The defendant’s capacity to appreciate the
wrongfulness of his or her conduct, or to conform his or
her conduct to the requirements of the law, was significantly impaired. Voluntary use of drugs or alcohol is
excluded.
*

*

*

Wash. Rev. Code § 9.94A.730 (2020)
Early release for persons convicted of one or
more crimes committed prior to eighteenth
birthday—Petition to indeterminate sentence
review board—Conditions—Assessment, programming, and services—Examination—Hearing—Supervision—Denial of petition.
(1) Notwithstanding any other provision of this
chapter, any person convicted of one or more crimes
committed prior to the person’s eighteenth birthday
may petition the indeterminate sentence review board
for early release after serving no less than twenty
years of total confinement, provided the person has not
been convicted for any crime committed subsequent to
the person’s eighteenth birthday, the person has not
committed a disqualifying serious infraction as defined
by the department in the twelve months prior to filing
the petition for early release, and the current sentence
was not imposed under RCW 10.95.030 or 9.94A.507.
*

*

*

107a
Wash. Rev. Code § 10.95.030 (2020)
Sentences for aggravated first degree murder.
(1) Except as provided in subsections (2) and (3)
of this section, any person convicted of the crime of aggravated first degree murder shall be sentenced to life
imprisonment without possibility of release or parole.
A person sentenced to life imprisonment under this
section shall not have that sentence suspended, deferred, or commuted by any judicial officer and the indeterminate sentence review board or its successor
may not parole such prisoner nor reduce the period of
confinement in any manner whatsoever including but
not limited to any sort of good-time calculation. The department of social and health services or its successor
or any executive official may not permit such prisoner
to participate in any sort of release or furlough program.
*

*

*

(3)(a)(i) Any person convicted of the crime of aggravated first degree murder for an offense committed
prior to the person’s sixteenth birthday shall be sentenced to a maximum term of life imprisonment and a
minimum term of total confinement of twenty-five
years.
(ii) Any person convicted of the crime of aggravated first degree murder for an offense committed
when the person is at least sixteen years old but less
than eighteen years old shall be sentenced to a maximum term of life imprisonment and a minimum term
of total confinement of no less than twenty-five years.

108a
A minimum term of life may be imposed, in which case
the person will be ineligible for parole or early release.
(b) In setting a minimum term, the court must
take into account mitigating factors that account for
the diminished culpability of youth as provided in Miller v. Alabama, 132 S.Ct. 2455 (2012) including, but not
limited to, the age of the individual, the youth’s childhood and life experience, the degree of responsibility
the youth was capable of exercising, and the youth’s
chances of becoming rehabilitated.
*

*

*

Wash. Rev. Code § 36.27.130 (2020)
Felony resentencing.
(1) The prosecutor of a county in which an offender was sentenced for a felony offense may petition
the sentencing court or the sentencing court’s successor to resentence the offender if the original sentence
no longer advances the interests of justice.
(2) The court may grant or deny a petition under
this section. If the court grants a petition, the court
shall resentence the defendant in the same manner as
if the offender had not previously been sentenced, provided the new sentence, if any, is no greater than the
initial sentence.
(3) The court may consider postconviction factors
including, but not limited to, the inmate’s disciplinary
record and record of rehabilitation while incarcerated;

109a
evidence that reflects whether age, time served, and diminished physical condition, if any, have reduced the
inmate’s risk for future violence; and evidence that reflects changed circumstances since the inmate’s original sentencing such that the inmate’s continued
incarceration no longer serves the interests of justice.
Credit shall be given for time served.
*

*

*

